<html>
<title> - EXAMINING THE U.N. INTERGOVERNMENTAL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                  EXAMINING THE U.N. INTERGOVERNMENTAL
                    PANEL ON CLIMATE CHANGE PROCESS

=======================================================================



                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
              
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 29, 2014

                               __________

                           Serial No. 113-77

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov
  
  
                       U.S. GOVERNMENT PRINTING OFFICE 
   
    88-147 PDF                     WASHINGTON : 2014 
  -----------------------------------------------------------------------
    For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
       
                 COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                            C O N T E N T S

                              May 29, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    12

                               Witnesses:

Dr. Richard S.J. Tol, Professor of Economics, University of 
  Sussex
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. Michael Oppenheimer, Albert G. Milbank Professor of 
  Geosciences and International Affairs, Department of 
  Geosciences, Princeton University
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. Daniel Botkin, Professor Emeritus, Department of Ecology, 
  Evolution, and Marine Biology, University of California, Santa 
  Barbara
    Oral Statement...............................................    35
    Written Statement............................................    38

Dr. Roger Pielke Sr., Senior Research Scientist, Cooperative 
  Institute for Research in Environmental Sciences, and Professor 
  Emeritus of Atmospheric Science, Colorado State University
    Oral Statement...............................................    53
    Written Statement............................................    55

Discussion.......................................................    67

             Appendix I: Answers to Post-Hearing Questions

Dr. Richard S.J. Tol, Professor of Economics, University of 
  Sussex.........................................................    96

Dr. Michael Oppenheimer, Albert G. Milbank Professor of 
  Geosciences and International Affairs, Department of 
  Geosciences, Princeton University..............................   102

Dr. Daniel Botkin, Professor Emeritus, Department of Ecology, 
  Evolution, and Marine Biology, University of California, Santa 
  Barbara........................................................   105

Dr. Roger Pielke Sr., Senior Research Scientist, Cooperative 
  Institute for Research in Environmental Sciences, and Professor 
  Emeritus of Atmospheric Science, Colorado State University.....   109

            Appendix II: Additional Material for the Record

Article submitted for the record by Representative Lamar S. 
  Smith, Chairman, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   134

Article submitted for the record by Representative Marc Veasey, 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   137

 
                  EXAMINING THE U.N. INTERGOVERNMENTAL

                    PANEL ON CLIMATE CHANGE PROCESS

                              ----------                              


                         THURSDAY, MAY 29, 2014

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 11:02 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC] [TIFF OMITTED] 


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Welcome to today's hearing titled ``Examining the U.N. 
Intergovernmental Panel on Climate Change Process.'' I will 
recognize myself for an opening statement and then the ranking 
member for her opening statement.
    The United Nations Intergovernmental Panel on Climate 
Change recently released three working group reports on climate 
science focused on physical sciences, impacts and adaptation, 
and mitigation. These documents make up the 5th Assessment 
Report. Similarly, the White House recently rolled out its 
National Climate Assessment, which takes a closer look at 
climate change and policy in the United States.
    Both the IPCC and the White House's documents appear, in my 
view, to be designed to spread fear and alarm and provide cover 
for previously determined government policies. The reports give 
the Obama Administration an excuse to try and control more of 
the lives of the American people.
    The IPCC's goal is an international climate treaty that 
redistributes wealth among nations. The Administration's goal 
is to impose greenhouse gas regulations, which will stifle 
economic growth and lead to hundreds of thousands of fewer 
jobs.
    On the heels of these catastrophic predictions, the 
President plans to announce next Monday his most costly climate 
regulations: new climate standards for power plants. The 
Administration's regulatory agenda will hit workers and 
families hard but have no discernable impact on global 
temperature. One analysis used IPCC assumptions and found that 
if the United States stopped all carbon dioxide emissions 
immediately, the ultimate impact on global temperature would 
only be 0.08 degrees Celsius by 2050.
    Serious concerns have been raised about the IPCC, including 
lack of transparency in author and study selection, and 
inconsistent approaches to data quality, peer review, 
publication cut-off dates, and the cherry-picking of results.
    Significantly, the scientists working on the underlying 
science for the IPCC defer to international politicians when 
they develop a so-called Summary for Policy Makers. This really 
amounts, of course, to a summary by policy makers.
    The document is disseminated ahead of the actual scientific 
assessment and provides biased information to newspapers and 
headline writers around the world, who gobble it up.
    Dr. Robert Stavins of Harvard University, who served as a 
lead author for the IPCC, recently criticized this process as 
generating ``irreconcilable conflicts of interest'' that 
compromise scientific integrity. He wrote that ``any text that 
was considered inconsistent with their interests and positions 
in multilateral negotiations was treated as unacceptable.'' The 
bias is there for all to see.
    Following the 2007 assessment, key IPCC claims about the 
melting of Himalayan glaciers, the decline of crop yields, and 
the effects of sea-level rise were found to be completely 
erroneous and derived from non-peer-reviewed sources.
    In 2010 the InterAcademy Council identified ``significant 
shortcomings in each major step of IPCC's assessment process.''
    We all know that predictions are difficult and that the 
only certainty about projections far into the future is that 
they will be wrong. Incredibly, the IPCC predicts to the year 
2100 and beyond.
    The White House's Climate Assessment implies that extreme 
weather, hurricanes and severe storms are getting worse due to 
human-caused climate change. The President claims that 
droughts, wildfires and floods ``are now more frequent and more 
intense.'' But the underlying science from the IPCC itself 
shows these claims are untrue, yet the Administration keeps 
repeating them.
    The President and others often claim that 97 percent of 
scientists believe that global warming is primarily driven by 
human activity. However, the study they cite has been debunked. 
While the majority of scientists surveyed may think humans 
contribute something to climate change, and I would agree, only 
one percent said that humans cause most of the warming. So the 
President has misrepresented the study's results.
    We should focus on good science, rather than politically 
correct science. The facts should determine which climate 
policy options the United States and world considers.
    The IPCC and White House reports acknowledge that the 
United States has achieved dramatic reductions in emissions. 
The White House's National Climate Assessment recognized, for 
example, that ``U.S. CO<INF>2</INF> emissions from energy use 
declined by around nine percent between 2008 and 2012.''
    U.S. contributions to global emissions are dwarfed by those 
of China, the world's largest emitter of greenhouse gases. And 
China shows no signs of slowing down.
    The Obama Administration should stop trying to scare 
Americans and then impose costly, unnecessary regulations on 
them. The President says there is no debate. Actually the 
debate has only just begun.
    When assessing climate change, we need to make sure that 
findings are driven by science, not an alarmist, partisan 
agenda.
    [The prepared statement of Mr. Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    The United Nations Intergovernmental Panel on Climate Change (IPCC) 
recently released three working group reports on climate science--
focused on physical sciences, impacts and adaptation, and mitigation. 
These documents make up the Fifth Assessment Report.
    Similarly, the White House recently rolled out its National Climate 
Assessment, which takes a closer look at climate change and policy in 
the U.S.
    Both the IPCC and the White House's documents appear to be designed 
to spread fear and alarm and provide cover for previously determined 
government policies. The reports give the Obama Administration an 
excuse to control more of the lives of the American people.
    The IPCC's goal is an international climate treaty that 
redistributes wealth among nations. The Administration's goal is to 
impose greenhouse gas regulations, which will stifle economic growth 
and lead to hundreds of thousands of fewer jobs each year.
    On the heels of these catastrophic predictions, the President plans 
to announce next Monday his most costly climate regulations--new 
climate standards for power plants.
    The Administration's regulatory agenda will hit workers and 
families hard but have no discernable impact on global temperature. One 
analysis used IPCC assumptions and found that if the U.S. stopped all 
carbon dioxide emissions immediately, the ultimate impact on global 
temperature would only be 0.08 degrees Celsius by 2050.
    Serious concerns have been raised about the IPCC, including lack of 
transparency in author and study selection, and inconsistent approaches 
to data quality, peer review, publication cut-off dates, and the 
cherry-picking of results.
    Significantly, the scientists working on the underlying science for 
the IPCC defer to international politicians when they develop a so-
called ``Summary for Policy Makers.'' This really amounts to a 
``Summary by Policy Makers.''
    The document is disseminated ahead of the actual scientific 
assessment and provides biased information to newspapers and headline 
writers around the world, who gobble it up.
    Dr. Robert Stavins of Harvard University, who served as a lead 
author for the IPCC, recently criticized this process as generating 
``irreconcilable conflicts of interest'' that compromise scientific 
integrity. He wrote that ``any text that was considered inconsistent 
with their interests and positions in multilateral negotiations was 
treated as unacceptable.'' The bias is there for all to see.
    Following the 2007 assessment, key IPCC claims about the melting of 
Himalayan glaciers, the decline of crop yields, and the effects of sea 
level rise were found to be completely erroneous and derived from non-
peer reviewed sources.
    In 2010 the InterAcademy Council identified ``significant 
shortcomings in each major step of IPCC's assessment process.''
    We all know that predictions are difficult and that the only 
certainty about projections far into the future is that they will be 
wrong. Incredibly, the IPCC predicts to the year 2100 and beyond.
    The White House's Climate Assessment implies that extreme weather, 
hurricanes, and severe storms are getting worse due to human-caused 
climate change. The President claims that droughts, wildfires, and 
floods ``are now more frequent and more intense.'' But the underlying 
science from the IPCC itself shows these claims are untrue. Yet the 
Administration keeps repeating them.
    The President and others often claim that 97 percent of scientists 
believe that global warming is primarily driven by human activity. 
However, the study they cite has been debunked.
    While the majority of scientists surveyed may think humans 
contribute something to climate change, and I would agree, only one 
percent said that humans cause most of the warming. So the President 
has misrepresented the study's results.
    We should focus on good science, rather than politically correct 
science. The facts should determine which climate policy options the 
U.S. and world considers.
    The IPCC and White House reports acknowledge that the U.S. has 
achieved dramatic reductions in emissions. The White House's National 
Climate Assessment recognized, for example, that ``U.S. CO2 emissions 
from energy use . . . declined by around 9% between 2008 and 2012 . . . 
''
    U.S. contributions to global emissions are dwarfed by those of 
China, the world's largest emitter of greenhouse gases. And China shows 
no signs of slowing down.
    The Obama administration should stop trying to scare Americans and 
then impose costly, unnecessary regulations on them.
    The President says there is no debate. Actually the debate has only 
just begun.
    When assessing climate change, we need to make sure that findings 
are driven by science, not an alarmist, partisan agenda.

    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, Ms. Johnson, the ranking member of 
this committee, is recognized for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning to all. I want to join the Chairman in welcoming our 
witnesses to this morning's hearing.
    Today our Committee will hear testimony about the process 
that is followed in carrying out the scientific assessments of 
the U.N.'s Intergovernmental Panel on Climate Change. I hope 
that today's hearing will be followed by a hearing at which 
scientists from the IPCC can actually present the findings of 
the 5th Assessment, because those findings are quite sobering 
and important for us to hear.
    In the meantime, while the topic of today's hearing is a 
legitimate one, namely, how the IPCC process can be improved, I 
am concerned that the real objective of this hearing is to try 
to undercut the IPCC and to cast doubt on the validity of 
climate change research.
    For the benefit of members who were not here in 2011, I 
would note that we had a hearing on this same topic back then, 
and the testimony to be given today echoes some of the claims 
made then. Ultimately, however, those claims were shown to be 
unfounded, yet here we are again.
    The reality is that the IPCC assessment is unprecedented in 
its scope and inclusiveness. The United States, along with 194 
other nations, has arrived at a rigorous and open process that 
yields the most comprehensive and objective assessments of the 
scientific literature relevant to the understanding climate 
change and its associated risks. We need only look at the 
results of the previous assessments to realize how much the 
IPCC has contributed to our understanding of climate change.
    The latest assessment will be completed in October with the 
release of a synthesis report that integrates the results of 
each working group. Again, the IPCC's message is clear: the 
climate is changing, humans are playing a significant role, and 
the time for meaningful action is now. All over the country, 
Americans are observing and responding to a changing climate. 
In Texas, my home state, record droughts and other severe 
weather events are putting a significant strain on regional 
economies and presenting new challenges to the state's 
infrastructure and its ability to respond to these escalating 
threats. Developing timely solutions to these challenges is 
critical, and the IPCC provides policy makers with the factual 
basis to do just that.
    We are likely to hear today that political agendas distort 
the IPCC's Summary for Policy Makers to make the impacts sound 
worse than they are or that the climate models or data the 
scientific assessments are based on are flawed. But we know 
that is not the case. In fact, if anything, the IPCC process of 
developing a consensus arguably results in a summary with more 
conservative estimates than some scientists believe are 
warranted, estimates that understate the impacts of climate 
change.
    Let us be clear: the IPCC's summary document is policy-
neutral and faithful to the underlying science. It is not a new 
assessment of the same information. It is not intended to be a 
substitute for the full assessment.
    Mr. Chairman, we have a responsibility to listen to the 
facts and act to protect the American people from the growing 
risk of changing climate. The IPCC makes clear to anyone who 
will listen that the science is well established and well 
accepted by the vast majority of climate scientists. We cannot 
continue to turn a deaf ear to the pleas from our constituents 
to start working towards solutions.
    This hearing is really a missed opportunity to consider the 
findings of the latest IPCC report and the kinds of actions the 
United States should be considering, and I--and as I stated 
earlier, I hope that we will have such a hearing in the coming 
months.
    In closing, I am committed to working with my colleagues on 
both sides of the aisle to develop policies that address these 
new climate realities. But we are going--we are not going to 
get very far if we spend our time continually revisiting a 
scientific debate that has already been settled. Nor will we 
get far if we continue a recent practice on this Committee of 
seeming to question the trustworthiness and integrity of this 
Nation's scientific researchers. That does them a disservice 
and does not reflect well on this Committee.
    Mr. Chairman, climate change is real, its impacts are real, 
and the need to act is real. I sincerely hope that we will soon 
be able to work together to develop constructive policies to 
deal with changing climate.
    Thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning. I want to join the Chairman in welcoming our 
witnesses to this morning's hearing. Today our Committee will hear 
testimony about the process that is followed in carrying out the 
scientific assessments of the U.N.'s Intergovernmental Panel on Climate 
Change. I hope that today's hearing will be followed by a hearing at 
which scientists from the IPCC can actually present the findings of the 
5th Assessment, because those findings are quite sobering and important 
for us to hear.
    In the meantime, while the topic of today's hearing is a legitimate 
one, namely, how the IPCC process can be improved, I am concerned that 
the real objective of this hearing is to try to undercut the IPCC and 
to cast doubt on the validity of climate change research.
    For the benefit of Members who were not here in 2011, I would note 
that we had a hearing on this same topic back then, and the testimony 
to be given today echoes some of the claims made then. Ultimately, 
however, those claims were shown to be unfounded. Yet here we are 
again.
    The reality is that the IPCC assessment is unprecedented in its 
scope and inclusiveness. The United States, along with 194 other 
nations, has arrived at a rigorous and open process that yields the 
most comprehensive and objective assessments of the scientific 
literature relevant to understanding climate change and its associated 
risks. We need only look at the results of the previous assessments to 
realize how much the IPCC has contributed to our understanding of 
climate change.
    The latest assessment will be completed in October with the release 
of a synthesis report that integrates the results of each working 
group. Again, the IPCC's message is clear: the climate is changing, 
humans are playing a significant role, and the time for meaningful 
action is now. All over the country, Americans are observing and 
responding to a changing climate. In Texas, record droughts and other 
severe weather events are putting a significant strain on regional 
economies, and presenting new challenges to the state's infrastructure 
and its ability to respond to these accelerating threats.
    Developing timely solutions to these challenges is critical, and 
the IPCC provides policymakers with the factual basis to do just that. 
We are likely to hear today that political agendas distort the IPCC's 
summary for policymakers to make the impacts sound worse than they are 
or that the climate models or data the scientific assessments are based 
on are flawed. But we know that is not the case. In fact, if anything, 
the IPCC process of developing a consensus arguably results in a 
summary with more conservative estimates than some scientists believe 
are warranted-estimates that understate the impacts of climate change.
    Let us be clear: the IPCC's summary document is policy-neutral and 
faithful to the underlying science. It is not a new assessment of the 
same information. It is not intended to be a substitute for the full 
assessment.
    Mr. Chairman, we have a responsibility to listen to the facts and 
act to protect the American people from the growing risks of a changing 
climate. The IPCC makes clear to anyone who will listen that the 
science is well established and well accepted by the vast majority of 
climate scientists. We cannot continue to turn a deaf ear to the pleas 
from our constituents to start working towards solutions.
    This hearing is a missed opportunity to consider the findings of 
the latest IPCC report and the kinds of actions the U.S. should be 
considering, and as I stated earlier, I hope that we will have such a 
hearing in the coming months.
    In closing, I am committed to working with colleagues on both sides 
of the aisle to develop policies that address these new climate 
realities. But we aren't going to get very far if we spend our time 
continually revisiting a scientific debate that has already been 
settled. Nor will we get far if we continue a recent practice on this 
Committee of seeming to question the trustworthiness and integrity of 
this nation's scientific researchers. That does them a disservice and 
does not reflect well on this Committee. Mr. Chairman, climate change 
is real, its impacts are real, and the need to act is reaI. I sincerely 
hope that we will soon be able to work together to develop constructive 
policies to deal with that changing climate.
    Thank you, and I yield back.

    Chairman Smith. Thank you, Ms. Johnson.
    I will now proceed to introduce our witnesses today. Our 
first witness is Dr. Richard S.J. Tol, Professor of Economics 
at the University of Sussex and a Professor of Economics of 
Climate Change at the Institute for Environmental Studies at 
VRIJE University in Amsterdam. I know you made a big effort to 
be here today, and that is appreciated. Previously, Dr. Tol was 
a Research Professor at the Economic and Social Research 
Institute in Dublin, the Michael Otto Professor of 
Sustainability and Global Change at Hamburg University, and an 
Adjunct Professor at Carnegie Mellon University. Dr. Tol is 
ranked among the top 25 most-cited climate scholars in the 
world. He has written over 200 journal articles and authored 
three books. He specializes in the economics of energy, 
environment and climate. Dr. Tol has been involved with the 
IPCC since 1994, serving in various roles in all three working 
groups. Most recently, he served as a coordinating lead author 
in the economics chapter of Working Group II for the 5th 
Assessment Report. Dr. Tol received his Ph.D. in economics from 
the VRIJE University in Amsterdam.
    Our second witness today is Dr. Michael Oppenheimer, the 
Albert G. Milbank Professor of Geosciences and International 
Affairs at Princeton University. Previously, Dr. Oppenheimer 
served as Chief scientist at the Environmental Defense Fund. 
Dr. Oppenheimer also was a coordinating lead author in the risk 
and vulnerabilities chapter of Working Group 2 for the 5th 
Assessment Report. Dr. Oppenheimer received his Ph.D. in 
chemical physics from the University of Chicago.
    Our third witness today is Dr. Daniel Botkin, Professor 
Emeritus at the Department of Ecology, Evolution and Marine 
Biology at the University of California at Santa Barbara. He 
also teaches biology at the University of Miami. Dr. Botkin 
also served as a Professor at Yale University's School of 
Forestry and Environmental Studies and at George Mason 
University. In 1970, Dr. Botkin developed the first successful 
computer model of the effects of climate change on forests and 
species. Recently, Dr. Botkin served as an expert reviewer for 
the United Nations' IPCC's 5th Assessment Report and reviewed 
the recently released National Climate Assessment. Dr. Botkin 
received his Ph.D. in biology from Rutgers University.
    Our final witness is Dr. Roger Pielke, Senior Research 
Scientist at the Cooperative Institute for Research and 
Environmental Sciences, a joint institute of the National 
Oceanic and Atmospheric Administration and the University of 
Colorado at Boulder. He is also Professor Emeritus of 
Atmospheric Science at Colorado State University. From 1999 to 
2006, Dr. Pielke served as Colorado's State Climatologist. He 
is a Fellow of the American Meteorological Society and the 
American Geophysical Union, where he also served on the 
Committee on Climate Change. Dr. Pielke has published over 370 
papers in peer-reviewed journals, 55 chapters in books, and co-
edited nine books to date. Beginning in 1992, Dr. Pielke has 
served in a number of capacities related to the U.N.IPCC 
including as an expert reviewer. Dr. Pielke received his Ph.D. 
in meteorology from the Pennsylvania State University.
    We welcome you all and look forward to your testimony, and 
Dr. Tol, we will begin with you.

               TESTIMONY OF DR. RICHARD S.J. TOL,

          PROFESSOR OF ECONOMICS, UNIVERSITY OF SUSSEX

    Dr. Tol. Thank you, Mr. Chairman. It is an honor and 
pleasure to be here.
    An appropriate solution to any problem requires a good 
understanding of its mechanisms, its consequences and the 
consequences of any countermeasure. The climate problem is so 
complex that at the moment, only the United States can mount 
sufficient expertise to cover the entire issue. Other countries 
need international collaboration from a body like the 
Intergovernmental Panel on Climate Change.
    The common understanding of the issues is probably also 
helpful for the international climate negotiations. I therefore 
favor reform of the IPCC rather than its abolition.
    I will focus my remarks on Working Group II of the IPCC 
because I know that one best. Working Group II is on the 
impacts of climate change. Researchers tend to study those 
impacts because they are concerned about climate change. 
Academics who research climate change out of curiosity but find 
less than alarming things are ignored unless they rise to 
prominence, in which case they are harassed and smeared.
    People volunteer to work for the IPCC because they worry 
about climate change. Governments nominate academics to the 
IPCC but we should be clear that it is often the environment 
agencies that do the nominating. All this makes that the 
authors of the IPCC are selected on concern as well as on 
competence. This shows in the 5th Assessment Report of Working 
Group II. The Summary for Policy Makers talks about trends in 
crop yields but missed the important trend of them all, which 
is technological change. It shows the impacts of climate change 
on agriculture, assuming that farmers will not adjust their 
practices in the face of changed circumstances. It shows that 
the most vulnerable country would pay some ten percent of its 
annual income towards coastal protection but omits that the 
average country would pay less than one-tenth of a percent.
    The SPM, the Summary for Policy Makers, emphasizes the 
health impacts of increased heat stress but downplays the 
health impacts of decreased cold stress. Therefore, the IPCC 
should investigate the attitudes of its authors and their 
academic performance and make sure that in the future they are 
more representative of their peers. If similar-minded people 
come together, they often reinforce each other's prejudices. 
The IPCC should therefore deploy the methods developed in 
business, medicine and social psychology to guard against 
groupthink.
    Not all IPCC authors are equal. Some hold positions of 
power in key chapters. Others hold subordinate positions in 
irrelevant chapters. The IPCC leadership in the past has been 
very adept at putting troublesome--potentially troublesome 
authors in positions where they cannot harm the cause. That 
practice must end. This is best done by making sure that 
leaders of the IPCC--the chairs, the vice chairs, the heads of 
technical support units--are balanced and open-minded.
    The IPCC releases a major report every six years or so. 
That is not frequent enough to keep abreast of a fast-moving 
literature. A report that is rare should make a big splash, and 
an ambitious team wants to make a bigger splash than last 
time--``It is worse than we thought. We are all going to die an 
even more horrible death than before six years ago.''
    Launching a big report in one go also means that IPCC 
authors will compete with one another on whose chapter foresees 
the most terrible things. Therefore, I think that the IPCC 
should abandon its big reports and convert to journal-style 
assessments instead.
    In learned journals, the editor guarantees that every paper 
is reviewed by experts. IPCC editors do not approach referees. 
Rather, they hope that the right reviewers will show up. Large 
parts of the IPCC reports are therefore not reviewed at all or 
reviewed by people who are not field experts, and the IPCC 
should move to journal-style reviews and editors.
    The IPCC is best scene as a natural monopoly. Monopolies 
should be broken up but natural monopolies where the costs of 
duplication are greater than the benefits of competition should 
be tightly regulated. The clients of the IPCC--the environment 
agencies of the world--are often also its regulators. It is 
time to end that cozy relationship. The climate problem is 
serious enough to deserve a serious international body to 
assess the state of knowledge.
    After the 4th Assessment Report, the InterAcademy Council 
suggested useful reforms. These were by and large ignored 
because the recommendations came after the preparations for the 
5th Assessment Report had already started and because few 
countries supported IPCC reform. It should be said, though, 
that the 5th Assessment of IPCC Working Group II is a lot 
better than the 4th Assessment Report, and the IPCC does do 
useful things. The 5th Assessment Report shows, for instance, 
that the Stern Review overestimated the impacts of climate 
change and underestimated the impacts of climate policy. This 
undermines the justification of the two-degree target of the 
E.U., the U.N. and the current Administration of the United 
States. The 5th Assessment Report also shows double 
regulations, say, subsidies next to tradable permits, increases 
costs without further reducing emission. This conclusion was 
inadvertently dropped from the German translation, which is 
very unfortunate as double regulation is widespread in Germany.
    We need an organization that is not beholden to any 
government or any party to anchor climate change in reality as 
we currently understand it. A reformed IPCC can play that role.
    Thank you for your attention.
    [The prepared statement of Dr. Tol follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Tol.
    Dr. Oppenheimer.

             TESTIMONY OF DR. MICHAEL OPPENHEIMER,

                 ALBERT G. MILBANK PROFESSOR OF

             GEOSCIENCES AND INTERNATIONAL AFFAIRS,

        DEPARTMENT OF GEOSCIENCES, PRINCETON UNIVERSITY

    Dr. Oppenheimer. I would also like to thank you, Mr. 
Chairman, for convening these hearings because I think the 
subject is quite important, and for inviting me to testify.
    The views I am expressing are mine. They don't adhere to 
IPCC and they don't reflect Princeton University's either.
    IPCC has served a critical function in providing 
governments regular assessments of the consensus view in the 
scientific community on the state of the science of climate 
change. I served as an author of every IPCC assessment report 
since the first one in 1990 and also one special report. I am 
currently the coordinating lead author--a coordinating lead 
author of Chapter 19 for the Working Group II report.
    Although I found participating in IPCC to be personally and 
professionally rewarding, I have never hesitated to provide 
constructive public criticism of IPCC when I thought it was 
warranted. It is to IPCC's credit that those who have been 
critical, even severely so, are invited to continue and even 
enhance their participation, and the smears that Richard talks 
about do not reflect IPCC practice nor the practice of most of 
the people involved in IPCC.
    As to author selection, names of potential authors are 
suggested by governments to IPCC. The United States has an open 
selection process that allows anyone to propose a name 
including their own. All names are forwarded by the U.S. 
government to IPCC, which evaluates the suggestions in light of 
professional expertise and the need for balance in terms of 
national representation, institutional affiliation and 
expertise. For example, most authors come from universities, 
governments and private research institutions but their 
affiliations range broadly in the past from ExxonMobil on the 
one hand to Greenpeace on the other. Several studies have 
compared projections of IPCC reports to actual outcomes in the 
real world, providing a basis to assess the claims of bias. 
Overall, there is a significant bias. It reflects the 
professional caution of scientists. Note that the assessments 
by the U.S. National Academy of Sciences and other major 
national academies around the world have arrived at judgments 
which are materially the same as IPCC's.
    As to the review process, each report consists of chapters 
that go through three levels of comprehensive review, further 
reducing the potential for bias. I am not aware of any 
scientific review process which approaches IPCC's in 
thoroughness. For example, over 50,000 review comments were 
received from over 1,700 reviewers of the Working Group II 
report this time. Distinct from most peer review journals, the 
review process is fairly transparent with review comments and 
author responses actually posted for public consumption. A key 
role is played by the so-called review editors, who are 
independent experts who review the responses that the chapters 
make to each and every of those review comments and assure that 
the reviews are responded to appropriately.
    As for the summary for policy makers, each working group 
report has a summary. It is intended for policy makers. Each 
SPM goes through two rounds of peer review. It is then reviewed 
at a plenary session with governments word by word. The 
objective of the approval process is to assure that it is clear 
and that it is accurate and that it is relevant to policy. The 
scientists who attend exercise an effective veto power over 
everything that goes into the SPM. Nothing can be inserted that 
is not scientifically accurate. No statement that the 
scientists who are present at the review session considered to 
be factually untrue and not representative of the science can 
survive. On the plus side, this process results in a clear 
document and, importantly, one that the governments accept as 
their own, including the United States and including under all 
Administrations. In this way, it is distinct from any other 
climate assessment performed by any another organization.
    On the negative side, in my view and the view of many of my 
colleagues, there have been occasions when government 
intervention by causing omissions have diluted IPCC findings. 
However, my belief is that the process on the whole has 
reflected what is in the reports in the underlying chapters and 
made them on the whole clearer and more understandable and even 
in some cases more accurate.
    My suggestions for improving the IPCC process are similar 
to Richard's: more transparency, publish more frequent but much 
briefer reports, open the plenaries to the press so that 
shenanigans as occured in the recent plenary session of Working 
Group III are less likely to happen because the public will be 
watching, and experiment with other types of assessment 
processes like a formalized expert elicitation or the Team B 
approaches that the Defense Department uses.
    I found some of what Richard said to be a cartoon of the 
assessment process but we can talk about that in questions.
    In the end, the world needs an IPCC, IPCC needs to 
continually improve its performance to meet that need. Our 
ability to deal with the risk of climate change depends on it.
    Thank you.
    [The prepared statement of Dr. Oppenheimer follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Oppenheimer.
    Dr. Botkin.

                TESTIMONY OF DR. DANIEL BOTKIN,

                      PROFESSOR EMERITUS,

               DEPARTMENT OF ECOLOGY, EVOLUTION,

                      AND MARINE BIOLOGY,

            UNIVERSITY OF CALIFORNIA, SANTA BARBARA

    Dr. Botkin. I want to thank you also, Chairman Smith, for 
having me speak here. I think it is very----
    Chairman Smith. Dr. Botkin, press the----
    Dr. Botkin. Okay. I want to thank you also, Chairman Smith, 
for inviting me to speak. I think this is a very important 
topic, and I am glad to be here.
    Since 1968, I have published research on the possibility of 
a human-induced global warming and its potential human and 
ecological effects. I have spent my career trying to help 
conserve our environment and its great diversity of species, 
attempting to maintain an objective, intellectually honest 
approach in the best tradition of scientific endeavor. I have 
been dismayed and disappointed in recent years that this 
subject has been converted into a political and ideological 
debate. I have colleagues on both sides of the debate, and 
believe we should work together as scientists instead of 
arguing divisively about preconceived, emotionally based 
positions.
    I was an expert review of both the IPCC and the White House 
National Climate Assessment, and I want to state up front that 
we have been living through a warming trend driven by a variety 
of influences. However, it is my view that this is not unusual, 
and contrary to the characterizations by the two reports, these 
environmental changes are not apocalyptic nor irreversible. I 
hope my testifying here will help lead to a calmer, more 
rational approach to dealing with climate change and with other 
major environmental problems. The two reports do not promote 
the kind of rational discussion we should be having. I would 
like to tell you why.
    My biggest concern is that the IPCC 2014 and the White 
House Climate Change Assessment present a number of 
speculative, sometimes incomplete conclusions embedded in 
language that gives the more scientific heft than they deserve. 
The reports are scientific-sounding rather than based on 
clearly settled facts or admitting their lack. Established 
facts about global environment exist less often in science than 
laymen usually think.
    The two reports assume and argue that the climate warming 
forecast by the global climate models is happening and will 
continue to happen and grow worse. Currently, these predictions 
are way off the reality. There is an implicit assumption in 
both reports that nature is in steady state, that all change is 
negative and undesirable for all life including people. This is 
the opposite of the reality. Environment has always changed. 
Living things have had to adapt to these changes and many 
require change. The IPCC report makes repeated use of the term 
``irreversible changes.'' A species going extinct is 
irreversible but little else about the environment is 
irreversible.
    The report gives the impression that living things are 
fragile and rigid, unable to deal with change. The opposite is 
the case. Life is persistent, adaptable, adjustable. In 
particularly, the IPCC report for policy makers repeats the 
assertion of previous IPCC reports that large fraction of 
species face increased extinction risk. Overwhelming evidence 
contradicts this assertion. Models making these forecasts use 
incorrect assumptions, leading to overestimates of the 
extinction risks. Surprisingly few species became extinct 
during the past 2-1/2 million years, a period encompassing ice 
ages and warm periods.
    The extreme overemphasis on human-induced global warming 
has taken our attention away from many environmental issues 
that used to be front and center but have been pretty much 
ignored in the 21st century and demand our attention.
    Some of the report's conclusions are the opposite of those 
given in articles cited in defense of those conclusions. For 
example, the IPCC Terrestrial Ecosystem Report states that 
seven of 19 subpopulations of the polar bar are declining in 
number, citing in support of this an article by Vongraven and 
Richardson, but these authors state the contrary, that the 
``decline is an illusion.'' In addition, the White House 
Climate Assessment includes a table of 30 different ecological 
effects resulting from climate change, a striking list of 
impacts. However, I reviewed the studies cited to support this 
table and found that not a single one of these 30 is supported 
by a legitimate impact and analyzed from human-induced global 
warming of direct observations.
    Some conclusions contradict and are ignorant of the best 
statistically valid observations. For example, the IPCC 
terrestrial ecosystem report states that terrestrial and 
freshwater ecosystems have sequestered about a quarter of the 
carbon dioxide emitted in the atmosphere by human activities in 
the past three decades--high confidence. Having done the first 
statistically valid estimates of carbon storage and uptake for 
any large areas of the earth, I can tell you that estimates of 
carbon uptake by vegetation used by IPCC are not statistically 
valid and overestimate carbon storage and uptake by as much as 
300 percent.
    The IPCC report uses the term ``climate change'' with two 
meanings: natural and human induced. These are not 
distinguished in the text and therefore confusion. If a 
statement is assumed to be about natural change, then it is a 
truism, something people have always known and experienced. If 
the meaning is taken to be human caused, then the available 
data do not support the statements.
    The issues I brought up in my reviews of the reports have 
not been addressed in their final versions. With the National 
Climate Assessment, I stated that the executive summary is a 
political statement, not a scientific statement. It is filled 
with misstatements contradicted by well-established and well-
known scientific papers.
    Climate has always affected people and all life on earth, 
so it isn't new to say it is already affecting the American 
people. This is just a political statement. It is inappropriate 
to use short-term changes in weather as an indication one way 
or another about persistent climate change.
    Thank you.
    [The prepared statement of Dr. Botkin follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [    
    Chairman Smith. Thank you, Dr. Botkin.
    Dr. Pielke.

               TESTIMONY OF DR. ROGER PIELKE SR.,

                   SENIOR RESEARCH SCIENTIST,

               COOPERATIVE INSTITUTE FOR RESEARCH

                   IN ENVIRONMENTAL SCIENCES,

         AND PROFESSOR EMERITUS OF ATMOSPHERIC SCIENCE,

                   COLORADO STATE UNIVERSITY

    Dr. Pielke. Okay. Mr. Chairman, thank you very much for 
inviting me to speak today.
    I am going to focus on specifically one issue. The IPCC 
Working Group 1 and National Climate Assessment reports have 
not adequately tested the skill of the client models to predict 
changes in regional climate statistics on multiple decadal 
timescales when tested by using the observed human activities, 
including fossil fuel emissions over the last several decades. 
Indeed, even when these models are run using observed initial 
conditions on decadal time periods, they have at best only very 
limited regional skill.
    The parts of the reports based on these model results is 
misleading the impact community and policymakers on the 
confidence that can be placed on regional climate impacts in 
the coming decades. This issue is independent of how important 
one has concluded is the addition of CO<INF>2</INF> for the 
atmosphere. Model projection skills should be a concern and 
addressed regardless of one's views on mitigation and 
adaptation.
    So the summary of my major points: The 2013 IPCC report and 
the 2014 U.S. National Climate Assessment present a set of 
projections from local and downscaled regional climate models 
as the basis for projecting future societal and environmental 
impacts, and thus is offered as a guide to the future for 
decision-makers.
    However, these projections have not been robustly shown to 
be accurate guides to the future. In fact, we aren't able to 
adequately quantify their reliability. The IPCC and NCA did not 
adequately discuss the skill run in hindcast predictions over 
the last several decades when the human activity, including 
fossil fuel emissions, are actually known.
    Except for limited exceptions, the models cannot protect in 
hindcast runs over the last several decades the temporal 
evolution of major atmospheric circulation features over multi-
decadal time periods, and these include, for example, the El 
Ninno, the La Ninna, the Pacific Decadal Oscillation, and the 
North Atlantic Oscillation. It is these major factors which 
determine which regions have drought, flood, tropical cyclone 
tracks, and other societally and environmentally important 
weather events. A global average is really not that useful of a 
metric for these particular very important weather phenomena.
    The models have an even greater challenge in accurately 
predicting changes in statistics of these major atmospheric 
circulation features over multi-decadal timescales.
    The IPCC and the National Climate Assessment should have 
reported such model limitations that were available to them in 
the peer-reviewed literature. And I document a whole series of 
these papers in the peer-reviewed literature in my written 
testimony. Without this information, decision-makers who face 
decisions at the regional and local scale will have a false 
sense of certainty about the unfolding climate future.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Pielke follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Smith. Thank you, Dr. Pielke. I will recognize 
myself for questions and then we will move on to the Ranking 
Member.
    Now, Dr. Tol, you refused to sign onto the Summary for 
Policymakers for Working Group 2 for the most recent IPCC 
report. You were quoted as saying, ``There are a number of 
statements that are widely cited that are just not correct.'' 
What would be some examples of those kinds of statements?
    Dr. Tol. I mentioned a couple of them already. What the SPM 
says about agriculture and the impacts of agriculture I just 
don't think reflect the literature or would be accurate. What 
they say is that, because of climate change, crop yields would 
fall by about two percent per decade. It is probably true. They 
also say the population will probably grow by 30 percent over 
the same time period so it is probably true as well. But they 
admit that because of technological change, crop yields have 
been going up, so the IPCC sort of paints this picture of 
eminent famine which I don't think is supported by any evidence 
whatsoever.
    Chairman Smith. Okay. Thank you, Dr. Tol.
    Dr. Oppenheimer, I don't have a question for you but I 
wanted to thank you for your suggestions as to how the IPCC 
could be more open and transparent and I hope they will heed 
your good suggestions.
    Dr. Oppenheimer. Thank you.
    Chairman Smith. Dr. Botkin, you made some head-turning 
statements here. You mentioned the White House list of 30 
impacts, that not one was true. You said the polar bear 
population, statements about it being declining, was the 
opposite; they were increasing. You said the Administration or 
the IPCC doesn't distinguish between natural and human-caused 
climate change and you said it was largely a political 
statement. I don't know what more to ask you. That covers it 
pretty well. But one question I had for you was the 
Administration's claim that extreme weather is directly 
connected by human-induced climate change. What do you think 
about their statements in that regard?
    Dr. Botkin. When I was a graduate student, I read Bryson, 
one of the great men of climatology, and at that time it was 
1960. He told me that the climate had been cooling since 1940, 
and if present trends continued, this was going to lead to a 
new Ice Age. And I was in a position to be on the right 
newspaper article, so I went back to him with that as a lead 
story because that was a great lead, and he thought about it 
and thought about it and he said, you know, Dan, this is just a 
20-year weather change. We can't make that kind of 
extrapolation.
    And then in the 1980s I worked closely with Steve Schneider 
who, along with Jim Hansen, did a lot to promote our concern 
with global warming. And Steve and I spoke on the same 
platforms and often discussed things and he always made the 
point that you cannot use short-term weather, meaning decadal 
even, weather changes has an index of climate change.
    So to assert, as the White House report does right at the 
beginning, that current weather changes are due to climate 
changes, it violates one of the basic principles of how I 
understand you approach climatology.
    And also, there is analyses that show that the changes are 
not out of the ordinary.
    Chairman Smith. Okay. Thank you, Dr. Botkin.
    And, Dr. Pielke, I want to put a PowerPoint up on the 
screen here and ask you about it. This shows, I believe, that 
even if the United States eliminated all emissions entirely, it 
would have almost no impact on global temperatures. But I would 
like for you to address that. I mean no one thinks that is 
going to happen, but what if we were to cut emissions in half? 
Is that going to have any discernible, any appreciable effect 
on global temperatures or not? If you can kind of put this in 
perspective.
    And, by the way, as I mentioned in my opening statement of 
course the United States has actually cut emissions over the 
last several years, I think nine percent over the last four 
years. We are going that direction. But even if we went 
further, even if we cut emissions even more, is that going to 
have any impact?
    Dr. Pielke. Well, that is a really good question. I think 
the way to answer this question is to use those models that the 
IPCC uses as process studies, not as predictions but look at 
sensitivities, and I think that is the kind of numbers that one 
produces when you insert that in the models.
    Chairman Smith. And just so that I am clear, so if the 
United States were to either eliminate emissions or cut them in 
half or dramatically reduce them, as the Administration 
proposes, it is not going to have any discernible impact on 
global temperatures in the near future and perhaps even long-
term?
    Dr. Pielke. That is true by any country of course that----
    Chairman Smith. Yes.
    Dr. Pielke. --if one would do that, yes.
    Chairman Smith. Okay. What about other countries? If other 
countries follow the United States, they will even cut their 
emissions, is that going to have any particular impact?
    Dr. Pielke. Well, it would have more of an impact of 
course. And again, the way to quantify this is with--to use the 
models as these process tools. And I think the figure that you 
have up there illustrates that----
    Chairman Smith. Okay.
    Dr. Pielke. --you have to have a huge reduction in order to 
get a large impact.
    Chairman Smith. And again, to make my point, if the United 
States were to eliminate all emissions, the projection is that 
by 2050 it would only reduce global temperatures by 0.08 
percent. Do you agree with that?
    Dr. Pielke. Well, I would accept your results because I 
mean I think you are presenting results from the models and 
that----
    Chairman Smith. Right.
    Dr. Pielke. --I think that is the kind of sensitivities 
they show.
    Chairman Smith. Okay. Thank you, Dr. Pielke. That concludes 
my questions.
    And the Ranking Member, Ms. Johnson, is recognized for 
hers.
    Ms. Johnson. Thank you very much.
    Dr. Oppenheimer, some of the testimony from the other 
panelists today seems to suggest that minority views or 
opinions are not adequately considered as part of the IPCC 
process. However, in your testimony you state that, unlike the 
situation with many other institutions, those who have been 
critical, even severely so, are invited to continue and even 
enhance their engagement in the process. Can you please 
describe the inclusive nature of the IPCC process and how lead 
authors deal with differences in opinion?
    And secondly, also, it is my understanding that comments on 
the report can be submitted from any scientist or expert who 
chooses to do so and that every comment is individually 
considered. Can you please describe the review process and the 
role of review editors in ensuring a transparent process?
    Dr. Oppenheimer. Thank you. Yes, I can. With regard to the 
first question, differences of opinion, I will give you an 
anecdote. During the last assessment, the fourth assessment, 
there were significant differences of opinion about how to 
represent what was going on in the Greenland and Antarctica ice 
sheets. Both ice sheets known to be losing ice and adding to 
sea level. They now account for about 1/3 of sea level rise 
that we are seeing today. And the question was what models 
should be used in projecting that into the future? There was 
disagreement among the authors, disagreement across working 
groups, and as a result, authors met during meetings. There 
were about four author meetings for each working group, and 
they met on the side in between meetings in order to work out 
differences and they exchanged a lot of email. And the final 
language, although it wasn't adequate in my view, did reflect 
the fact that there were differences of opinion on this issue. 
I think IPCC can do a much better job of showing the full 
spectrum of opinion on issues by the authors and I hope it will 
do so in the future.
    As far as the review procedure, it is actually very 
painful. As I said, 50,000 comments on 30 chapters, that is an 
average of more than 1,000 per chapter, and we have to address 
every single one of them. And if we fail to do so, we have 
these independent scientists on our neck insisting that we go 
back and they actually can hold up the completion of a chapter 
until comments are adequately addressed.
    Ms. Johnson. Thank you. In Dr. Botkin's testimony he 
characterizes IPCC process as a very large number of people 
doing long reviews of the scientific literature and cautions 
against using, as he described it, a crowdsourcing model of 
information-sharing. Dr. Tol also suggests that IPCC process is 
vulnerable to this kind of groupthink. It seems to me that 
consensus does not equal groupthink and that this is a 
mischaracterization of the process and the resulting 
assessments. What do you think of these claims by the two 
witnesses?
    Dr. Oppenheimer. First of all, I would want to say there 
were a number of particular scientific claims by both of them 
that were inaccurate, but there is no room to actually talk 
about all the inaccuracies right now so let me go on and answer 
your question.
    I think groupthink is a real possibility. It has been shown 
to occur when you have groups of people together. And I think 
occasionally IPCC is the victim of the scientific tendency to 
all be cautious at the same time, and we need to find ways to 
get over that. And the suggestion that Richard made and that I 
made of having alternative teams of scientists within IPCC 
looking at the same question I think would be an improvement.
    But given the current structure of IPCC, I think by and 
large the review process helps push in the right direction so 
that although I can't say that there isn't any groupthink, I 
also think it is minimized but I think the process can be 
improved further.
    Ms. Johnson. Now, Dr. Tol also suggests that leadership of 
IPCC intentionally marginalizes authors that they view as 
troublesome by placing them in positions where they cannot 
``harm the cause.'' As I understand it, the United States has a 
very open selection process in which anyone can submit their 
name and all of those names are forwarded to the IPCC. Can you 
please describe the--how IPCC selects the authors for the 
assessment?
    Dr. Oppenheimer. Well, that comment puzzled me because 
Richard, who is a very smart guy, is also one of the biggest 
troublemakers among authors in that he says what he thinks, 
which is great, and he hasn't been marginalized. He was made 
the cohead of a chapter. He has done before and he did a great 
job. So, I don't know what this cabal is about frankly.
    Ms. Johnson. Thank you. My time is up.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much.
    First, Dr. Oppenheimer, I don't mean this as--don't take--I 
guess you will take it personally or not. Okay. Let me just 
state right out one of the things that has disturbed me most 
about the debate on global warming over the years has been the 
tendency of people who are pushing this concept to dismiss 
those who disagree with them. And I mean I remember in this 
Committee and I remember in other Committees listening to the 
words ``case closed,'' which was basically trying to restrict 
an honest discussion rather than open an honest discussion.
    And just today you, for example, just in passing noted that 
you felt your colleague, his views are like cartoons. And I am 
sorry, that doesn't reflect a good thing to me. That is a 
dismissal and you just mentioned you didn't have time enough to 
go through where you disagree. Most people when they disagree 
with someone at least encapsulate it in a time period that they 
have got, whether it is 15 seconds or 10 seconds where we 
disagree on this rather than dismiss. And I think that probably 
that is the thing that gets me the angriest about this whole 
issue of global warming is that one side dismisses the other. 
Please feel free to comment.
    Dr. Oppenheimer. The cartoon remark was aimed at only one 
sentence that Richard spoke, which is that somehow everybody is 
out-racing the other one to make the most extreme assessment so 
that their chapter will get the headline. I just don't agree 
with that. I think if it goes on in anybody's head, it is a 
cartoon of the process and it bears no relation to how people 
behave.
    As far as the scientific facts being right or wrong, I try 
very hard to let everybody have their say on scientific facts 
and then they can be discussed as facts. I think everyone 
should be listened to. But in the end, governments have to act 
on evidence that the large majority of the scientific community 
believes while not dismissing the fringes, listening to them, 
weighing them, and making decisions. So that is my view and I 
try to behave accordingly.
    Mr. Rohrabacher. All right. Well, again, which leads one to 
believe that the other people on their outside views are 
fringes. And again, it is an attitude that I find overwhelming 
among those people who are pushing the global warming or 
believe in that theory.
    Let me just go to some of the specifics on it. Let me just 
ask the panel if you can give me yes or no. Is this 97 percent 
of all scientists believe that global warming is a result--and 
that global climate change is a result of human activity? Is 
that accurate or inaccurate from what you see from other 
scientists and from what you know?
    Dr. Tol. I guess this question is directed to me.
    First, let me say that I did not take any offense with the 
cartoon statement by Dr. Oppenheimer. I have five minutes so 
what can you do other than draw a few----
    Mr. Rohrabacher. Oh, believe me, if I took offense at all 
the things they said about me, I would be offended all the 
time.
    Dr. Tol. No, exactly.
    The 97 percent estimate is bandied about by basically 
everybody. I had a close look at what this study really did and 
as far as I know, as far as I can see, this estimate just 
crumbles when you touch it. None of the statements in the 
papers are supported by any data that is actually in the paper, 
so unfortunately--I mean it is pretty clear that most of the 
science agrees that climate change is real and most likely 
human-made, but is--97 percent is essentially pulled from thin 
air. It is not based on any credible research whatsoever.
    Mr. Rohrabacher. I only have a couple more seconds in my 
time period. Would you say you agree with that assessment, the 
97 percent is inaccurate?
    Dr. Oppenheimer. I actually haven't read the paper, 
although I am familiar with the argument about it, but my view 
is similar to Richard's in the other respects, namely the 
lion's share of the scientific community believes that the 
Earth is warming----
    Mr. Rohrabacher. No----
    Dr. Oppenheimer. --and that most of the warming is human-
made.
    Mr. Rohrabacher. But I will have to also point out that one 
of the other things that upsets me in the debate is that people 
who are arguing the case for global warming always refuse to 
answer a specific question when they know that it will not 
bolster the argument for global warming.
    Dr. Oppenheimer. You want me to comment on something I 
haven't read?
    Mr. Rohrabacher. Well, I wasn't asking about something that 
you read. This has not been just published in one article. This 
97 percent figure has been repeated over and over and over 
again by such a wide variety of people that that is--I am 
asking about----
    Dr. Oppenheimer. That is because there have been many 
scientific articles that have studied what scientists have said 
and have come to conclusions which are similar. Whether the 97 
percent is defensible or not, I really don't know.
    Dr. Botkin. I would like to break in here if I may. What a 
scientist finds out is science. What a scientist says is 
opinion and science is not a consensus activity. Science is 
innovative and invention and discovery.
    Now, I have spent my life looking at facts and analyzing 
facts. I have been concerned about global warming since 1968 
and in the 1980s it looked like the weight of evidence went 
towards human-induced significant--to a significant extent, and 
since then, it has moved against it. But for me it doesn't 
matter--it isn't the point. It is the wrong point about how 
many people approve. That is not science. What it is is the 
facts, the interpretation of the facts, and their analysis. So 
it is the wrong metric.
    Chairman Smith. Okay. Thank you, Mr. Rohrabacher.
    This might be a good time for me, without objection, to put 
into the record an article from the Wall Street Journal three 
days ago, May 26. The headline is ``The Myth of the Climate 
Change 97 Percent.'' So without objection, that will be made a 
part of the record.
    [The information appears in Appendix II]
    Chairman Smith. The gentlewoman from Oregon, Ms. Bonamici, 
is recognized for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
to all the witnesses.
    Dr. Oppenheimer, in written testimony Dr. Pielke asserts 
that the climate models used by the IPCC for projecting future 
societal and environmental impacts from climate change may not 
be reliable and that by not accurately reporting the 
limitations of the climate models, the IPCC is giving 
policymakers a false sense of certainty about the climate 
future. It is my understanding that the climate models have 
improved since the previous assessment, so will you address how 
important our model projection is to our understanding of the 
climate issue and can you also discuss the current state of 
climate modeling? And I do have another couple of questions as 
well.
    Dr. Oppenheimer. Well, first of all, there are endless, and 
I mean endless and painful discussions in the underlying 
chapters about the uncertainties, which are mentioned in the 
Summary for Policymakers. Everybody is aware that projecting 
the future is a fraught activity, that it can be--we can be 
highly inaccurate, but we have tools and we use them as best we 
can.
    The fact of the matter is, though, that if you took the 
climate models and threw them away and never referred to them, 
there would be adequate evidence that Earth is changing, that 
the climate is warming, that much of that change is due to 
human activity, and that in the past such changes have wrought 
very substantial impacts which would be quite threatening to 
society if they were left unabated. That evidence comes from 
not only observations of climate change and change to 
ecosystems that those climate changes are causing but also a 
very deep understanding of what are called paleo climates, 
climates of 1,000, 10,000, 1 million years ago.
    Even without the evidence from models, we know that over 
time large warming has been generally associated with changes 
in carbon dioxide levels in the atmosphere. Those in the past 
were natural changes. The current changes are by and large 
faster and the carbon dioxide levels have already reached a 
level which is above any for many million years.
    Ms. Bonamici. And thank you. And I do want to also ask, you 
mentioned something about----
    Dr. Botkin. Can I break in and make a comment?
    Ms. Bonamici. I need to finish with my time, Dr. Botkin----
    Dr. Botkin. Okay. But I do----
    Ms. Bonamici. --I have got another question----
    Dr. Botkin. --want to disagree because I----
    Ms. Bonamici. Well, somebody else can ask you. I wanted to 
ask Dr. Oppenheimer again.
    As I understand that the IPCC has fairly robust guidelines 
on how authors are to treat uncertainty as part of the 
assessment. So oftentimes in this committee and in Congress we 
talk about uncertainty and it is used sometimes as a tool to 
discredit in the field of climate science as a whole as if any 
scientific theory that is less than 100 percent certain should 
be discredited. So what role does uncertainty play? How should 
it be considered in decision-making and considering the current 
climate conditions and the impacts of global climate change and 
ocean acidification that I know many of my constituents are 
already beginning to experience? Can you talk about the 
potential risks of inaction if we were to wait for 100 percent 
consensus or certainty on climate change?
    Dr. Oppenheimer. Well, on the last point we know that the 
lifetime of carbon dioxide in the atmosphere, unless some 
genius invents a way to cost-effectively remove it from the 
atmosphere, is very long, ranging from hundreds of years to 
even longer, and about 20 percent of the carbon dioxide that is 
in the atmosphere today due to human activity will still be 
there 1,000 years from now warming the climate. So there is an 
irreversibility in the system. Actions or lack thereof today 
make a commitment to what the climate will look like 10, 50, 
100, 1,000 years from now.
    Ms. Bonamici. And, Dr. Oppenheimer, you suggest in your 
testimony that there is a way to improve transparency of the 
IPCC process and that is to publish a record of significant 
divergent viewpoints. Dr. Tol testified about outside 
challengers and that their advice is ignored. That is 
interesting because if there is an outside challenger, there--
just because their view is not accepted does not mean they were 
ignored. They are considered and maybe not agreed with. But can 
you talk about your rationale for this suggestion to improve 
the transparency by publishing that record of divergent 
viewpoints and how would that contribute to the assessment as a 
whole?
    Dr. Oppenheimer. Yes. It would be healthy for everyone if 
everyone could measure who was saying what and what their view 
was and how it diverged from what was reported as the main view 
or the consensus and people could make their own judgments. You 
as our leaders could make your own judgments about who to 
listen to and whose view made sense and why and why not. Right 
now it is too much--there is too much going on behind the 
curtain and I would like to lift that curtain and make it more 
public.
    I want make one comment on the irreversibility question. 
Dr. Botkin says nothing is effectively irreversible. Well, if 
you lose most of the ice from the West Antarctic ice sheet and 
it raises sea level, that is irreversible on a timescale of 
10,000 years. That is irreversible enough for me.
    Ms. Bonamici. Thank you. And----
    Dr. Botkin. That is not actually irreversible.
    Ms. Bonamici. And I only have five minutes and my time is 
expired. I yield back, Mr. Chairman.
    Mr. Schweikert. [Presiding] Thank you.
    Representative Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    Dr. Pielke, several years ago I had an opportunity with 
some other Science Committee members to go to the South Pole 
and obviously, as many of you know, they are doing a lot of 
research on climate change in that laboratory down there, but 
one of the scientists that was sitting there showed me a very 
long graph of the temperatures dating back thousands of years 
and forecasting thousands of years. So that was my kind of 
first introduction to the models. And so I asked him, well, how 
long have we been recording data? And so this very long graph, 
and actually, on that graph if you looked at the time frame 
where we were actually recording have data, it was a very small 
part of that. And so his whole premise was based on these 
models. And in your testimony, it includes an image of 120 I 
think model runs, including those used by the IPCC and White 
House climate change for global temperature from 1975 to 2025. 
For the period of, say, 2000 to present, how many of these 
models have been in the ballpark as projected to the actual?
    Dr. Pielke. Well, it is a really good question. In terms of 
the global average, very few of them, but that is actually not 
even the complete question. The question is how well can they 
do on the major weather events? And in my written testimony I 
document a series of papers, one of them by the one of the 
authors of the National Climate Assessment that says these 
models can't be used for precipitation. They are not that good. 
So the reality of it is it is worse than that. Even if they 
could replicate the global average in the last 14 years or so, 
which they haven't been able to do very well, they have not 
been able to predict the major weather features that affect 
drought and floods.
    And I think Michael's point was actually a good one. We 
don't need the models probably for that. The models I think are 
misleading us and I think we need to recognize that. They also 
may be misleading us in terms of attribution so it is a tougher 
problem, but we do have some information. We know that CO<INF>2</INF> 
is increasing. We know that land use is changing. We know we 
are putting more nitrogen on the Earth's surface. We know it is 
a very wide range of issues we face and I think that is how we 
should approach the problem is a broader perspective, and the 
models unfortunately, which were very heavily relied on by both 
the IPCC and the National Climate Assessment, I think are 
misleading everyone in terms of the confidence we have of what 
is going to happen in the future.
    Mr. Neugebauer. So I don't want to put words in your mouth, 
but the models are being used I think to drive a lot of policy. 
Would you agree?
    Dr. Pielke. I 100 percent agree with that, yes.
    Mr. Neugebauer. And so if the models aren't correct and as 
you say and Dr. Oppenheimer said, that possibly the models are 
irrelevant, then should we start disregarding that? And what is 
a better metric for climate policy to be made on if not the 
models?
    Dr. Pielke. Well I--first of all, in terms of what I would 
recommended is that we try to develop our society so it is more 
resilient to weather events that occurred in the past with 
today's infrastructure or maybe worst case scenarios events or 
maybe paleo record events. Try to make our society more 
vulnerable--more resilient to them so we are not as vulnerable. 
That way we can protect ourselves regardless to the extent we 
are altering the climate in the future. To me that is a much 
more inclusive approach. It should be bipartisan and everyone 
would benefit from that. But instead, we are relying on these 
models to say this is what it will be 20, 30, 40 years from now 
making policy based on that when the models clearly are not 
working.
    Dr. Botkin. Could I add a point here?
    Mr. Neugebauer. Sure.
    Dr. Botkin. Since my field is ecology, ecosystems and 
species, where we learn a lot is from the paleo record, the 
reconstructions of climate and the history of extinctions and 
persistence of species, and that is where I believe the key is 
if we are going to look on effects. Dr. Oppenheimer said it was 
clear that there were damaging ecosystem effects, but there are 
changes, just as there have been changes in the past.
    And as I mentioned before, we look carefully and in the 
last 2-1/2 million years, in spite of widespread climate 
changes of many kinds, very few species went extinct, so it is 
that kind of information we need to use.
    Mr. Neugebauer. I think just one last question for the 
whole panel. One of the conversations in the past, speaking of 
the past, has the climate on Earth been warmer and colder or 
has it always been one trend? Have there been periods where it 
has been colder, then warmer, then colder again?
    Dr. Oppenheimer. It has been colder, it has been warmer. 
What is distinct this time is that there is an extended warming 
which threatens, if we keep the emissions up, to go on 
indefinitely at a rate which is unprecedented over an extended 
period, and certainly in the history of civilization. The 
climate has been very stable over the last 10,000 years or so. 
We threaten to bring that period to an end through our 
emissions of the greenhouse gases.
    Dr. Botkin. That is not correct. There has been a little 
Ice Age, there has been the warming.
    Mr. Schweikert. Forgive me. For everyone on the panel and 
everyone here, because this is a back-and-forth, I will beg of 
you that when we have things we want to share, have the Members 
reach out to you.
    Dr. Botkin. Okay.
    Mr. Schweikert. Mr. Neugebauer, anything else?
    Mr. Neugebauer. My time is expired.
    Mr. Schweikert. It is. Thank you, Mr. Neugebauer.
    Mr. Swalwell.
    Mr. Swalwell. Thank you, Chairman.
    And, Dr. Tol, you served as a convening lead author in 
Working Group 2. Is that right?
    Dr. Tol. Correct.
    Mr. Swalwell. Who nominated you to that?
    Dr. Tol. The Irish Government.
    Mr. Swalwell. And you noted that it is often the case that 
environmental agencies do the nominating but in your case it 
was not an environmental agency, is that right?
    Dr. Tol. It was the Environmental Protection Agency of 
Ireland.
    Mr. Swalwell. But it was ultimately the government's 
appointment?
    Dr. Tol. Yes.
    Mr. Swalwell. And it is correct that there were 308 total 
convening authors in Working Group 2, is that right?
    Dr. Tol. 308 authors, yes.
    Mr. Swalwell. You were one of the 308?
    Dr. Tol. Correct.
    Mr. Swalwell. How many scientists in the world at the time 
that you were appointed to that working group were working in 
this area of science? Can you estimate?
    Dr. Tol. Tens of thousands.
    Mr. Swalwell. Tens of thousands. So you were in a working 
group, one of 308, in an area with tens of thousands of 
scientists?
    Dr. Tol. Yes.
    Mr. Swalwell. And it is your position that competent people 
have been excluded because their views do not reflect the views 
of government from the working group?
    Dr. Tol. That is correct.
    Mr. Swalwell. Yet you have views that are different from 
the working group, right?
    Dr. Tol. Correct.
    Mr. Swalwell. And Dr. Oppenheimer pointed out that many 
times you are a loud voice against the views of the majority, 
is that right?
    Dr. Tol. That is also correct.
    Mr. Swalwell. Yet you were still included in the working 
group?
    Dr. Tol. Yes. I would argue that I am an exception. Yes.
    Mr. Swalwell. Okay. And you describe in your testimony 
mishaps in the process? Yes?
    Dr. Tol. Yes.
    Mr. Swalwell. And you stated that you are worried about 
groupthink, is that right?
    Dr. Tol. Correct.
    Mr. Swalwell. And you also said that there should be 
protections against groupthink, is that right?
    Dr. Tol. Correct.
    Mr. Swalwell. So you had a lot of concerns about IPCC, safe 
to say?
    Dr. Tol. Yes. Yes.
    Mr. Swalwell. And you were one of the few scientists in the 
whole world, one of 308, who had the privilege and honor of 
being at the table as these decisions were being made. That is 
safe to say, right?
    Dr. Tol. Yes.
    Mr. Swalwell. But instead of fighting within the IPCC to be 
a force for reform and fight against groupthink and be a force 
for the minority views, you chose to quit the working group, is 
that right?
    Dr. Tol. No. I am still a convening lead author of chapter 
10 of Working Group 2. I quit the drafting team of the Summary 
for Policymakers.
    Mr. Swalwell. Okay. So you used in your words ``step down'' 
from the summary of policymakers team for Working Group 2?
    Dr. Tol. Yes.
    Mr. Swalwell. Were there any other scientists in Working 
Group 2 that quit?
    Dr. Tol. I don't think so.
    Mr. Swalwell. You were the only one?
    Dr. Tol. Yes.
    Mr. Swalwell. You would agree, Dr. Tol, with the following 
statement: ``Climate change is occurring and most likely caused 
by humans''?
    Dr. Tol. Correct.
    Mr. Swalwell. And in fact you wrote in June 2013, ``It is 
well known that most papers and most authors in the climate 
literature support the hypothesis that anthropogenic climate 
change, that most papers and most authors in the climate 
literature support the hypothesis of anthropogenic climate 
change. It does not matter, it does not matter whether the 
exact number is 90 percent or 99.9 percent.'' Is that right?
    Dr. Tol. I can't recall that exact quote by would agree 
with that statement, yeah.
    Mr. Swalwell. Okay. Thank you, Dr. Tol.
    And, Dr. Pielke, you stated that it would make no 
difference if we reduced our carbon emissions by 50 percent, is 
that correct? You told----
    Dr. Pielke. No, I didn't say it would take no difference. 
It just makes more difference if you reduce it 50 percent than 
if you reduce a 25 percent. No.
    Mr. Swalwell. Do you think we should double our carbon 
emissions? Would that make any difference?
    Dr. Pielke. You would have an effect. You would have more 
reinforcing if you increase in CO<INF>2</INF>. I mean it is--if 
you use the models. The models are the tools that you use to 
assess that and they would say if you put more CO<INF>2</INF> 
in there, you get more positive reinforcing. You take it out, 
you get less reinforcing. I think the problem is that you are 
confusing--when we talk about anthropogenic climate forcing, 
people think fossil fuels. Fossil fuels is one of them. There 
is a whole range of them. There was an Academy report back in 
2005 that talked about broadening out this perspective. We have 
to look at these other things. There is a black carbon, there 
is land use change, there is other aerosol effects. It is a 
more complicated problem, and I think one of the problems of 
the National Climate Assessment is they focused on fossil 
fuels. So that is what you are asking the question about but 
really our impact on the environment is much broader than that.
    Mr. Swalwell. Would we be healthier and better off if we 
doubled our carbon emissions or reduced them by 50 percent?
    Dr. Pielke. If we are healthier or not? I don't know about 
that question, but in terms of how our climate impact is, you 
double the CO<INF>2</INF>, you have more of a climate impact 
that you have half. But healthy is not the right question 
because CO<INF>2</INF> is not a pollutant like a traditional 
pollutant.
    Mr. Swalwell. Would you prefer to live in a world that 
doubled its carbon emissions or one that cut them in half?
    Dr. Pielke. Everything else being equal, it--that is an 
interesting question actually.
    Mr. Swalwell. That is why we brought you here.
    Dr. Pielke. Well, that is an interesting question but, no, 
I was coming here to talk about the science and some of the 
science issues. That is a question--that is a broad-range 
question about what is the benefits and costs of doubling or 
decreasing CO<INF>2</INF>. Obviously, if we have less emissions 
into the atmosphere, it is a positive thing. That includes 
aerosols, that includes nitrogen oxide, sulfur dioxide, et 
cetera. All of that is beneficial. If we don't put anything in 
the atmosphere, if we don't put anything in the ocean, but the 
reality of it is we have to try to optimize that. And by--I 
think we need a broad-based approach to this problem and not 
focusing on just one issue, which is what the question you are 
asking is.
    Mr. Swalwell. Thank you, Dr. Pielke. Thank you, Dr. Tol.
    Mr. Schweikert. Thank you, Mr. Swalwell.
    Mr. Swalwell. I yield back the balance of my time.
    Mr. Schweikert. Representative Brooks.
    Mr. Brooks. Thank you, Mr. Chairman. My questions are for 
Drs. Botkin and Pielke.
    Testimony includes an image of 102 model runs done by John 
Christy of the University of Alabama in Huntsville, which is 
where I reside, in Huntsville, including those used by the IPCC 
and the White House Climate Assessment for Global Temperature 
from 1975 to 2025. For the period 2000 to the present, how many 
of these models have accurately projected actual observed 
temperatures?
    Dr. Botkin. Well, that graph was to some of them but I also 
have been in contact with John Christy and he sent me other 
graphs that show in particular how the American--U.S.-based 
models have done and they haven't done any better. I can't 
speak to all of them. Actually, it is 102 model runs and about 
34 models. But even the U.S. models don't do well at all. They 
don't even come close.
    Dr. Pielke. You know, on the figure have in my written 
testimony that John Christy graciously provided me, you can see 
the couple of models are close to what has been observed in the 
last 20 years, 15, 20 years, but by far the vast majority have 
overstated the warming.
    Mr. Brooks. Well, why does it matter that these climate 
models have failed so frequently?
    Dr. Pielke. Well, it is one of the tests of the model. I 
mean if you are going to use these models to try to predict 
what will happen in the next several decades, you want to have 
some confidence that they are robust tools. And I think the 
models have failed to show that. In fact, I think they have 
been a cause for a lot of debate and discussion.
    And I think what Michael was saying we don't probably need 
the models because the models are misleading us. They are 
talking about a future that may not occur. It certainly hasn't 
shown that the models are able to replicate what has happening 
the last several decades, and so you wouldn't believe a weather 
prediction model that was forecasted for tomorrow or the next 
day if it kept failing all the time. I think that is what we 
have with these climate models. They are not ready for 
primetime.
    Models are very useful. They understand processes. They can 
help assimilate data. But as forecasting tools decades into the 
future, they are not ready.
    Mr. Brooks. Dr. Botkin, do you have anything to add?
    Dr. Botkin. Yes. And, first of all, the models are well 
known not to be very well validated for--at any level, and 
there is work such as by J. Scott Armstrong who is an expert on 
model validation mainly for businesses and he says that these 
climate models meet hardly any of the criteria for legitimate 
validation. And so you can--you have to question the validity 
of the model.
    And I say this having worked on some of the models. I had a 
graduate student that added vegetation to one of the climate 
models as his Ph.D. thesis, so I think that the models, since 
they are so much failing to come close and haven't been well 
validated, they are not a good guide now.
    Mr. Brooks. Well, we have used this 97 percent of 
scientists agree kind of number. Is it fair to say that close 
to 100 percent of scientists agree that our models are 
failures?
    Dr. Pielke. No. A lot of people--obviously they don't 
believe they are failures because they base the IPCC and the--
--
    Mr. Brooks. Well----
    Dr. Pielke. --National Climate Assessment on it.
    Mr. Brooks. --let me be more specific. That for the time 
frame from 2000 to 2014 that they have failed?
    Dr. Pielke. I would think someone would still disagree. 
They have been trying to explain how they can--why they are not 
agreeing, why there is less warming. They say now the warming 
has gone deeper into the ocean, for example, which obviously 
raises the question if it has gone deeper in the ocean, why 
didn't they predict that? But I would think there are people 
that are still arguing the models are robust.
    Mr. Brooks. Well, I am looking at the graphs. Is this graph 
accurate?
    Dr. Pielke. Yes, the graph is accurate.
    Mr. Brooks. Well, the graph shows that the models don't 
correspond with actual temperatures, so how can people contend 
that the models are good if they are way off base with the 
temperatures with the exception of perhaps one or two out of 
all the models being run?
    Dr. Pielke. That is an excellent question, but I think it 
is even broader than that because, as I did in my--as I showed 
in my written testimony, there are a range of peer-reviewed 
papers that have shown when these models have run in the last 
several decades, they can't predict regional statistics well at 
all. They can't predict changes in regional climate statistics, 
and therefore, there is a whole range of reasons they shouldn't 
be accepted. But the problem is this issue is not being 
discussed. It wasn't discussed in the IPCC.
    Mr. Brooks. Let me conclude with this question. Former Vice 
President Al Gore recently gave an interview to Politico in 
which he stated that ``extreme weather events'' are 100 times 
more common today than they were 30 years ago due to global 
warming. He also stated that these events are ``getting more 
frequent, more common, bigger, more destructive.'' Do you agree 
with this statement and is a consistent with the state of the 
science? Dr. Botkin first and then Dr. Pielke.
    Dr. Botkin. There is very good data--and Dr. Pielke and his 
son can provide them--that show that the average rate of 
tornadoes, hurricanes, droughts are within the range of what 
has happened in the past. It is not extreme. And I would add 
that as a now resident of Florida, there hasn't been a major 
hurricane hit the mainland of Florida for nine years, so 
somehow at least us in Florida are managing our climate.
    Mr. Brooks. Dr. Pielke.
    Dr. Pielke. I would refer you to my son's testimony last 
summer to the Senate. I mean it is in area he is an expert in 
and he has commented quite a bit about this subject.
    Dr. Botkin. There was also another analysis that showed 
that if you looked over the Antarctic ice core data and then 
compared it to the recent changes, that the recent changes in 
climate are not outside the ranges of past climate. There is a 
published paper that shows that.
    Mr. Schweikert. All right. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Schweikert. Thank you, Mr. Brooks.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Dr. Tol, I think you have been clear about this but I just 
want to make sure that I have understood. You would agree with 
the statement that climate change is caused--or at least 
partially caused by greenhouse gases and that--I think you said 
earlier, most scientists agree that climate change is real. Is 
that true?
    Dr. Tol. That is true.
    Mr. Kennedy. Okay. Dr. Oppenheimer, you believe that 
climate is changing. I think that is a safe assumption based on 
your testimony earlier?
    Dr. Oppenheimer. Yes.
    Mr. Kennedy. Okay. The majority posted a chart earlier in 
this hearing that showed by some models anyway--and we will get 
to the reliability of those models in a second--but the end 
of--by the end of the century they predicted I believe it was a 
three degree centigrade change in global temperature. Can you 
color that a little bit for me? What does a three degree 
centigrade change in global climate temperature mean, Dr. 
Oppenheimer?
    Dr. Oppenheimer. Well, just to give you an example, already 
with less than a one degree--and we are talking degrees Celsius 
here so you double it roughly for Fahrenheit, with a change 
somewhat less than one degree Celsius, the number of extremely 
hot days--and by the way, in response to the last set of 
questions, one extreme that we are sure about that has 
increased are very hot days. Those have definitely increased. 
We have a lot of confidence in that.
    The number of such extremes--for instance, in a city like 
Washington where a 90 degree day might be the hottest ten 
percent of days, such days have already become more frequent on 
the global average. The historical ten percent hottest days now 
represent 18 percent of days, and so we are moving to a hotter 
and hotter climate where we have more and more extremes of high 
temperature. The sea level has been rising. The sea level has 
been rising primarily because water expands when you heat it 
and because ice is melting----
    Mr. Kennedy. So three degrees centigrade change in global 
temperature, any rough prediction as to what that means for sea 
level rise?
    Dr. Oppenheimer. Yes. It means a sea level rise which IPCC 
reckons will be something between almost a foot and three feet 
higher than today. And just to give you a rule of thumb, on an 
East Coast beach one foot of vertical sea level rise takes away 
in erosion and submergence typically 100 times as much land. 
One foot up this way, 100 feet inland go away unless you spend 
a heck of a lot of money defending the beaches.
    Mr. Kennedy. Thank you, Doctor.
    And, Dr. Botkin, your testimony--written testimony you say 
that--I think your point one is that we are living through a 
warming trend but it is driven by a variety of influences. In 
part three you say, ``Has the temperature been warming? Yes, we 
have been living through a warming trend, no doubt about 
that.'' And part five you say, ``Are greenhouse gases 
increasing? Yes, CO<INF>2</INF> rapidly.'' You go on to say in 
part three change is normal on life. Or ``Change is normal. 
Life on Earth is inherently risky and always has been.''
    Doctor, do you look both ways before you cross the street?
    Dr. Botkin. What is the relevance of that question?
    Mr. Kennedy. Do you wear a seatbelt when you get in the 
car?
    Dr. Botkin. Of course I do.
    Mr. Kennedy. So do you think it makes sense to mitigate 
against some of these changes that you indicate are--in your 
own testimony are taking place?
    Dr. Botkin. I think that we----
    Mr. Kennedy. Yes or no, Doctor.
    Dr. Botkin. Yes or no?
    Mr. Kennedy. Yeah, yes or no.
    Dr. Botkin. Okay. Restate the question.
    Mr. Kennedy. Do you think--if you look both--if life is 
inherently risky, yet during the course of your daily 
activities you take steps to mitigate those risks, why would 
something that could be as catastrophic as climate change could 
be, why would we not take mitigating steps?
    Dr. Botkin. That is not a yes-or-no answer. There is no yes 
or no to that.
    Mr. Kennedy. Well, would you suggest that we take 
mitigating steps or not?
    Dr. Botkin. I--if we----
    Mr. Kennedy. That is a yes or no.
    Dr. Botkin. We should do adjustments----
    Mr. Kennedy. So yes.
    Dr. Botkin. --mitigate. It is very unlikely to work. So 
reducing carbon dioxide is unlikely to actually take place well 
within----
    Mr. Kennedy. I didn't ask that. So what other mitigating 
steps, short of--if you are saying CO<INF>2</INF> reduction, 
isn't going to mitigate climate change, what other mitigating 
steps would you suggest?
    Dr. Botkin. I suggest that we deal with the situation by 
reducing the--going back to the major issues that face us. 
There are nine major environmental issues that affect us all 
the time and are much more damaging and much riskier to us than 
climate change, and I would be happy to give you those. And we 
need to focus on those.
    Mr. Kennedy. Okay.
    Dr. Botkin. And if we focus on those, they are either 
neutral or beneficial to the global warming----
    Mr. Kennedy. Okay. So in your opinion, Doctor, climate 
change is not one of the top nine greatest environmental 
changes--challenges we face?
    Dr. Botkin. I have been working on climate change since 
1968 and I think it is one of the problems we need to deal with 
but we have to put it in its proper priority with those other 
nine.
    Mr. Kennedy. Sir, I have got----
    Dr. Botkin. I am not saying that----
    Mr. Kennedy. --eight seconds left so let me ask----
    Dr. Botkin. --we should ignore it.
    Mr. Kennedy. --one question for Dr. Pielke.
    Sir, you have said that humanity has had a significant 
effect on climate. You have talked a little bit about whether--
the faith that we put in these models and the models but I 
think you said are--also aren't working and I think there is 
some question as to how reliable and how accurate these models 
are concededly. You mentioned in your written testimony that--
some of the National Weather Service funding and the models 
that have been created by that, have had enormous social value. 
Do you think those--investment in those types of models is a 
good thing?
    Dr. Pielke. Yes, I do and I think investment and 
predictability of climate models is also an excellent 
investment. That is different than providing----
    Mr. Kennedy. Understood. Understood. So how would you 
categorize the decision to cut NOAA climate funding by 24 
percent, which is what the appropriations bill that we will be 
voting on this afternoon would do?
    Dr. Pielke. I think there is an issue--what you are calling 
climate change and there is climate. Climate----
    Mr. Kennedy. I am just saying the study, it is about 
funding for----
    Dr. Pielke. Well, I can't--obviously can't answer that 
question unless I know exactly where the funding is going to. 
But if it is funding predictive models for decades in the 
future, I don't think that is a good use of funds.
    Mr. Kennedy. Thank you.
    Dr. Botkin. Could I comment a little more about your 
question?
    Mr. Schweikert. Mr. Botkin, actually I have to move on, 
too.
    Mr. Cramer.
    Mr. Cramer. Well, I might give Dr. Botkin a chance actually 
to answer it because, Dr. Botkin, what I would ask you as a 
follow-up to Representative Kennedy's question is if wearing 
your seatbelt increased your likelihood of surviving the crash 
by 0.08 percent but you were likely to lose your job as a 
result of it, would that be a good mitigation?
    Dr. Botkin. No. Apparently not. But I always wear a 
seatbelt so----
    Mr. Cramer. Because the percentages are much better than 
that.
    Dr. Botkin. Yes. Yes. But, look, I have written a lot about 
risk in life and how you deal with it. I have developed a 
computer model of forest that has risks. But think about--of 
course you want to deal with risk but think about how an impala 
in Africa deals with risks. These animals often know when a 
lion is hunting them and then they will move away, but once a 
kill has been made, then you will see the grazers grazing near 
the lion because it is no longer a threat.
    So there is a book that says that is why they don't--part 
of the reason they don't get ulcers. You have to know when to 
respond to risk and what are real risks and how to deal with 
them. I have written a lot about them so it is not appropriate 
to say just because risk is real means I need to--that you 
ignore it. No. You say risk is reality. Now, where are the 
risks that we must reduce? Where are risks unacceptable for our 
human lives? And for example, right now, there is huge habitat 
destruction. There is invasive species that are threatening the 
entire citrus crop in Florida. That is a major risk that we 
need to deal with now. Our fisheries are in big trouble. There 
are major risks with them. We want to reduce those risks. So 
you have to know about risks, understand how to analyze it, use 
the mathematics, the statistics processes. You are very alert 
to risk. Just to say there is risk doesn't mean you ignore 
risk----
    Mr. Cramer. Yeah, we often don't do a cost-benefit analysis 
and we frankly create more risks by mitigating the risks that 
we think we are avoiding.
    I want to get to the issue a little more of peer review and 
peer pressure if you will. And, Dr. Pielke, you referenced your 
son's testimony in the United States Senate. Of course the 
President's Science Advisor Dr. Holden has been critical of I 
think your son's testimony and in fact has stated, I don't 
think in the context of your son's testimony, but stated that 
anybody who disagrees with their premise makes themselves out 
to be ``silly.'' Perhaps you could just elaborate a little bit 
on how--what kind of signal does that send from the top of our 
leadership to the scientific community that if you disagree 
with me you are somehow silly?
    Dr. Pielke. Well, it is not healthy for the scientific 
process and it is probably not--certainly not healthy for the 
political process. But I have had my own experiences. I was 
asked to be on the American Geophysical Union Committee on 
Climate Change and we put together a statement I could not 
agree with. It was very--I think sort of like a National 
Climate Assessment type statement. And I wrote a minority 
statement on that and I put it as an appendix in my testimony, 
but it wasn't reported in the Journal of the American 
Geophysical Union. They wouldn't publish that particular 
statement. And so I think there has been a chilling effect on 
presenting alternative perspectives, and actually I was a sort 
of intrigued that Michael was talking about maybe the need for 
another team. Maybe there should be a red team that try to come 
up with other perspectives challenging these reports and maybe 
together we could create a better consensus than what is 
available now. Because now if you stand up and you make a view 
that is different, you get either ignored or you get dismissed.
    Mr. Cramer. Well, Dr. Pielke, you make a great point. And I 
was very encouraged by Dr. Oppenheimer's statement about 
transparency because that is what this hearing is all about. 
And one of the things I have found in this place is that the 
lack of transparency creates way more mistrust than honest 
discussion of even--in fact, one of the things I think I rather 
am proud of is that I like to hear the opposing view, and if I 
talk to four advisors and they all agree with me, I try to find 
a fifth one, otherwise I just don't think you have the type of 
robust and honest discussion that you need to get the 
consensus.
    And, Dr. Tol, I would be interested in your opinion as well 
on what happens to people who disagree, especially in the 
academic world. I mean how does this peer pressure play itself 
out if we don't have greater transparency, more robust opposing 
discussion?
    Dr. Tol. For people who disagree on climate or on climate 
policy are sorted disinvited or not invited or ignored. Their 
papers can get into trouble, their funding can get into 
trouble, they can be smeared in the media, and so on and so 
forth. And it even goes as far as that they are personally 
threatened or their family is threatened. And I think it is 
very unfortunate and very unhealthy.
    Mr. Cramer. I agree. Thank you. Thank you all.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Cramer.
    And the gentleman from Texas, Mr. Veasey, is recognized for 
questions.
    Mr. Bera. Marc, can I take it?
    Chairman Smith. Of course. I assume the gentleman from 
Texas will defer to the gentleman from California, Dr. Bera. 
And so Dr. Bera is recognized for his questions.
    Mr. Bera. First, I want to thank my colleague from Texas 
for that.
    My thought process here--this is a fascinating hearing. We 
agree that the climate is changing and I think all of our 
colleagues agree that the climate is changing and all of our 
witnesses certainly have agreed to that as well. Now, what is 
causing that change we can debate. You know, is it cyclical, is 
it natural, is it human? For the record, I do think humans have 
impacted climate change and our behaviors impact on our 
accelerating climate change.
    Dr. Tol, you touched on the danger of groupthink. And I 
come out of academia. I am a biological scientist before going 
to medical school and getting my M.D. And there is a danger for 
groupthink. Groupthink, hundreds of years ago, said the Earth 
was flat. So part of advancing science, part of academia is 
challenging groupthink, is inviting all views in a 
nonjudgmental way. The scientific method requires that we 
explore and engage in this debate.
    There is consensus as well. I am from California and we are 
going through an incredibly bad drought here this year. We have 
very wet years as well in my region and flood so we know we 
have to--you know, when we talk about risk and mitigating risk, 
we have to assess risk, we have to look at how we can mitigate 
that risk, how we can do the things that are within our control 
to better manage that risk and there is no model of 
predictability that is 100 percent but, we sit there and say, 
okay, well it looks like it is going to be a dry year next 
year. Let's try to manage that risk and mitigate that risk. It 
may be a wet year. But we do our best with the data that is 
available and we invite that conversation.
    So I think this is incredibly important. We all agree the 
climate is changing. The objective data says the globe is 
getting warmer. You know, we are having weather extremes. Dr. 
Botkin talked about impacts on agriculture, such as the impacts 
on our fisheries. So let's just acknowledge these risks and 
let's have an adult conversation about how we can mitigate and 
what we can do.
    Now, my question. Dr. Oppenheimer, you touched on a real 
issue that does concern me. You know, we already have quite a 
significant amount of CO<INF>2</INF> trapped in our atmosphere 
and we have had our Secretary of Energy in here and you also 
commented on how long it will take to degrade that, hundreds of 
years to degrade the CO<INF>2</INF> that is already trapped in 
our atmosphere. From your perspective within the IPCC and 
within the scientific community, that to me there is an urgency 
in advancing the science of how we might go about degrading 
these masses of carbon. And, yeah, I pass that over to you.
    Dr. Oppenheimer. Yeah. I mean what I am concerned about--
and Mr. Kennedy asked me about this--is what does the world 
look like if you just let this keep going on and you get past 3 
degrees? And the things I would worry about the most are food 
supply particularly in poor or low latitude countries, but also 
if you just let it go on indefinitely, global food supply; 
secondly, extreme heat, as I mentioned before; third, 
particularly in the context of all the other problems that 
humans are causing for species and ecosystems, the pressure of 
a rapid warming on species and ecosystems. Some are already 
very sensitive like coral reefs and the Arctic systems are 
already under threat and that involves just also the people 
that depend on them, not just the other species; and fourth, 
what is going to go on along the coast where we know how 
vulnerable our coast is.
    So that is the picture of the world when you get 3 degrees 
and beyond that I am worried about. And if you look at the 
scenarios about how you would avoid that world, you really have 
to get going now with some substantial reductions in emissions.
    Mr. Bera. Dr. Botkin, would you want to----
    Dr. Botkin. Yes. Mr.--Dr. Oppenheimer has just misstated 
some things. You know, I do work on the Arctic and I have 
friends--colleagues who work there, including Craig George, who 
lives up in Barrow--lives up in the very north end of Alaska. 
And anyway----
    Mr. Bera. You wouldn't disagree that the Arctic is 
changing, though, would you, that ice is melting, that----
    Dr. Botkin. Well, we did a study in which we used the 
records from logbooks from whaling ships hunting the bowhead 
whales in the 19th century and compared it with late 20th 
century and we found two things. We found that the end of 
winter sea ice extent was the same in the 19 century as by the 
end of the 20th century.
    Mr. Bera. But it has changed over the last decade so it may 
have changed 200 years ago but there is change occurring.
    Dr. Botkin. There are changes but it has happened in the 
past. In fact, the Northwest Passage has opened before. We know 
that because there is DNA from bowhead whales in Atlantic--
relatives of them which couldn't have happened. So these kind 
of changes have happened in the past.
    And as I point out, the evidence about polar bears is 
really negligible. So there are changes. The question is 
whether these changes are really damaging or not and the 
evidence is not strong that it is damaging.
    Mr. Bera. I have gone over my time so again thank you to my 
colleague from Texas.
    Chairman Smith. Thank you, Dr. Bera.
    And the gentleman from Arizona Mr. Schweikert is recognized 
for his questions.
    Mr. Schweikert. Thank you, Mr. Chairman.
    I wish we were just sitting around the table not drinking 
beer because we know what happens then, but drinking coffee, 
and just be able to have an extended dialogue. One of my 
concerns is actually an odd one for a guy that is elected to 
Congress is we live in a two-year cycle, politics. When you 
deal with other countries, their parliamentary systems, they 
never know when their next election may be. We are in a 
political environment. You are trying to do in many ways data, 
maybe not even policy but do data, and yet those of us in the 
political world, we now control so much of the money that the 
academic community has access to. And one of my future goals 
here is trying to find a way to sort of separate the implied or 
actual sort of influence because, let's face it, the whole 
discussion here and the policy outcomes from this are stunning 
amounts of money to be made or to be lost depending on the 
country, the industry, the technology, how people have 
invested. And every single Member of Congress here has had 
someone in our office saying please regulate this, please do 
this because this is how I invested. As my father used to say, 
it is about money, power, ego and I am finding often it is all 
about all three.
    There is actually a couple externalities I want to get my 
head around. I will try to speak actually faster. And this is 
sort of open to anyone on the panel. If I walked into you and 
said here is my incremental amount; here is $10 billion and I 
want to maximize beneficial effects over the next five years, 
so let's do a limited time frame, would I be focusing on A-
CO<INF>2</INF>? Would I be focusing on invasive species? Would 
I be focusing--my fear is because of the size and scale of this 
issue, we may be heading towards a misallocation of resources.
    Let's just start, Dr. Pielke. Talk to me a little bit about 
my threat levels in allocations of resources and how we do sort 
of risk analysis?
    Dr. Pielke. I think that is really an excellent question. 
That gets up to this approach that we have been proposing where 
it is what I call a bottom-up resource-based perspective where 
you try to reduce risk to your important resources. So for 
Arizona, for example, it is probably going to be water would be 
one of your big ones. How can you improve your water 
infrastructure so that you are robust against periods of 
drought?
    Mr. Schweikert. Okay.
    Dr. Pielke. To me that is the single--probably number one 
item I would look at.
    Mr. Schweikert. Dr. Botkin.
    Dr. Botkin. Yes. I agree. We should focus on these issues I 
mentioned before. Freshwater is one. We are overusing worldwide 
freshwater and we have to reduce that. You would be surprised 
to know that phosphorus for agriculture is a limited resource. 
There is going to be a lot of competition for that. We need to 
focus on that. Habitat destruction is very destructive but in 
many ways----
    Mr. Schweikert. But where I am heading more is--
conceptually is my ranking because my great fear is we spend 
lots of time on CO<INF>2</INF> and issues involved in there and 
something slips through the crack that becomes much more----
    Dr. Botkin. I would say you want to focus on these. I would 
start right now on invasive species. I think that the climate 
issue should be put--reduced and its priorities in favor these 
kind of issues.
    Mr. Schweikert. Dr. Oppenheimer, if you were looking at 
limited resources in your prioritization--I am not saying you 
walk away from one--what would you be right now?
    Dr. Oppenheimer. Within the context of the climate issue, I 
would balance money spent on finding ways to reduce emissions 
quickly and cost-effectively----
    Mr. Schweikert. But even outside climate.
    Dr. Oppenheimer. There are so many things----
    Mr. Schweikert. And if I gave you a five year window 
because, let's face it, we live in two year windows so five 
years is forever for us. And I said here is my resources, go do 
something great, what would you do?
    Dr. Oppenheimer. Climate would be a part of the picture; it 
wouldn't be the whole picture. And in dealing with climate I 
would deal with both reducing CO<INF>2</INF> and protecting 
people from climate extremes that are already happening----
    Mr. Schweikert. But there would be a variety of things on 
your list?
    Dr. Oppenheimer. Of course.
    Mr. Schweikert. Dr. Tol.
    Dr. Tol. For a five-year timescale and for a global 
perspective I would go for Golden Rice.
    Mr. Schweikert. Okay. High-yield----
    Dr. Tol. Yes, high yields in vitamin A because that would 
save most lives in this timescale. It would also reduce 
vulnerability to climate change. My second priority if it were 
a 15-year timescale would be a malaria vaccine which also would 
reduce the vulnerability to climate change but would do much 
good in itself.
    When you are talking about 50- or 100-year time frame, then 
climate change would come into the picture.
    Mr. Schweikert. Okay. It is--actually amazed you said the 
rice because that has actually been one of my interests.
    Dr. Oppenheimer, just a quick reference, noise in the data, 
I have a great interest in sampling. One of the noises we were 
looking at years ago was we see urban high temperatures----
    Dr. Oppenheimer. Um-hum.
    Mr. Schweikert. --going up but when we actually looked at 
where the samples were being taken, we were seeing concrete 
islands, heat sink islands, regeneration islands and trying to 
find a methodology to adjust for that meaning that we actually 
had a lot of noise in urban temperature data.
    Dr. Oppenheimer. That----
    Mr. Schweikert. When you work on the committee, are you 
constantly looking for where there are these externalities that 
are creating noise in your data?
    Dr. Oppenheimer. Yes. They are constantly looked at. And 
that particular one, which was interesting a couple of decades 
ago, has been resolved. There is an urban heat island effect.
    Mr. Schweikert. Um-hum.
    Dr. Oppenheimer. However, its effect on the global 
temperature trend of about .9 degrees Celsius over the last 100 
years has only been less than .1 degree at the North Pole.
    Mr. Schweikert. Yeah, but in recent sample sets they are 
still using the current temperature from those urban areas 
instead of doing----
    Dr. Oppenheimer. No, there are different ways it is done 
and they removed those to the extent they affected data 
significantly.
    Mr. Schweikert. I would love to look at that because I can 
show you some of the data sets where it wasn't adjusted 4.
    Dr. Oppenheimer. I would be happy to----
    Mr. Schweikert. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Schweikert.
    The gentleman from Texas, Mr. Veasey, is recognized for his 
questions.
    Mr. Veasey. Mr. Chairman, I have an article from the Wall 
Street Journal. It is a MarketWatch I would like to submit for 
the record. The article expresses concern and frustration with 
an amendment passed last week by my Republican colleagues as 
part of the National Defense Authorization Act which restricts 
the Pentagon's use of climate science studies, including the 
IPCC which we are discussing today, as part of its strategic 
military planning. The article in the Journal states that ``GOP 
science deniers have 'crossed the line,' they are now messing 
with national security. America is now under attack from an 
enemy within, irrational science denialism, a toxic mindset, a 
spreading self-destructive mental virus. Yes, this is `War on 
America'.'' The military has been using this for--this 
science--this climate science research for decades now and the 
research studies show that they are an essential part of our 
national defense. And, Mr. Chairman, because of that, I would 
like to move to include this article as part of the record.
    Chairman Smith. Without objection, that article will be 
made a part of the record.
    [The information appears in Appendix II]
    Mr. Veasey. And I have a question for Dr. Botkin--excuse me 
if I pronounced the name wrong--Dr. Pielke and Dr. Tol. You all 
cite John Christy as an example of someone whose model should 
be considered in the IPCC process. Christy famously used 
tropospheric temperature records from satellite data to show 
little evidence of warming. Those results were challenged by 
two peers resulting in Dr. Christy acknowledging very serious 
errors in his data and correcting these results, which meant 
that his models then showed warming. Somehow, since this 
acknowledgment in Science magazine, Dr. Christy has returned to 
showing no significant change in global temperature.
    My question for you is which Christy models should the IPCC 
rely on?
    Dr. Botkin. Could I just----
    Dr. Pielke. Well, let me mention that one. I worked closely 
with John Christy. I was there when that error was discovered. 
It was not a major error. He corrected it and everything since 
then has moved forward. In fact, he actually has a slightly 
more warming than the RSS data, which is another group that 
analyzes tropospheric data. These are not models. He is working 
with satellite data so it is not a model. His model comparisons 
are taking the models that are available to anyone from the 
IPCC.
    So John Christy's work is accepted as being robust by the 
entire scientific community. I am not aware of anyone that is 
critical of what he has shown. The--there is other evidence 
also presented about the models that I presented in my written 
testimony that shows there are problems with the models.
    Mr. Veasey. So which models do you think he should be 
using, the ones that he retracted, the ones that are 
consistent----
    Dr. Pielke. No, I can----
    Mr. Veasey. --with other researchers or the ones that 
mysteriously are consistent with his earlier work?
    Dr. Pielke. No, I have to correct that he did not--he does 
not use a model in his analysis of the tropospheric 
temperatures; he uses satellite data. These are observational 
data sets. He then compares it with model results that are 
computed by other people. There is a whole range over in my 
written testimony that he provided to me that are the models 
that are used to create the National Climate Assessment, models 
that are used to create the IPCC report. So there are--that is 
not his model. His model is robust, always has been robust. It 
was a small error that he found and it has been apparently 
blown out of proportion.
    Mr. Veasey. Dr. Oppenheimer, would you please comment?
    Dr. Oppenheimer. There were a couple of adjustments that 
Dr. Christy had to make, but I think the more important point 
is that if you look at the IPCC report, they actually have a 
lengthy discussion of the difference between what models 
project and what Dr. Christy's data and other people's show for 
the warming in what is called the mid-troposphere, which is 
only a small slice of the atmosphere, over the last 35 years. 
And there are discrepancies not just between the models and the 
data but between different data sources.
    This is an area of uncertainty. It is an area that has been 
looked at extensively. It is an area where the uncertainties 
are not completely resolved and it can't be used to undermine 
the credibility of the models, particularly because the 
observations themselves are disparate. So this is an example of 
where IPCC actually has this stuff in the background report, 
looked at it, assessed it, and will continue to do so over the 
next series of assessments.
    Dr. Pielke. And I correct Michael a little bit. The data 
that John Christy provided me is lower tropospheric data.
    Dr. Oppenheimer. Fine.
    Mr. Veasey. Thank you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Mr. Veasey.
    The gentleman from Georgia, Dr. Broun, is recognized for 
his questions.
    Mr. Broun. Thank you, Mr. Chairman.
    Gentlemen, I am a medical doctor, a physician. I would 
submit that that is a scientist, an applied scientist. It is 
not the same as a research scientist obviously but I was 
trained in the scientific process. And I have got some problems 
with some terminology that is utilized particularly by folks 
that are researchers, people on the other side of the aisle 
here, and from my scientific background this notion of settled 
science to me is totally unscientific on its face.
    And so I would like to start with Dr. Botkin. Would you 
agree with my last statement?
    Dr. Botkin. Absolutely, and I have run workshops on cancer 
research and have a lot of friends in medical research, and I 
would like to add that I think that medical research and 
ecological research share a lot in common and I agree with you 
completely, yeah.
    Mr. Broun. Dr. Pielke, would you agree with that statement?
    Dr. Pielke. The science is not settled, no.
    Mr. Broun. Dr. Oppenheimer?
    Dr. Oppenheimer. Some things are more or less settled; some 
things are not.
    Mr. Broun. Well----
    Dr. Oppenheimer. The question of whether carbon dioxide is 
40 percent above preindustrial times, that is settled. The 
question of exactly how warm the Earth will become as a result, 
that is not settled.
    Mr. Broun. Well, Dr. Tol?
    Dr. Tol. Science is of course never settled but, as Michael 
Oppenheimer says, there are thoughts that everybody basically 
agrees on and there are parts of science where everybody 
disagrees essentially. And that is what we should focus on in 
our research.
    Mr. Broun. Well, the point of all this is that the idea of 
settled science, Mr. Rohrabacher talked about ``case is 
closed.'' I heard it just on the Floor yesterday from Members 
of the other party, they were talking about this very issue 
that it is absolutely settled, it is a closed case, there is no 
question whatsoever that we have something called anthropogenic 
global warming. And of course the terminology has changed from 
human-induced global warming to anthropogenic global warming, 
now to anthropogenic climate change. Climate changes all the 
time. Of course it is called weather.
    To go back to the IPCC report, I have seen in medical 
science and papers that are written, there is a lot of 
selectivity as far as what papers are considered to be valid 
and what is not, what is published and what is not, what peer 
review is accepted and what is not. Data and assumptions and 
methodology all come to play in these. Would you all----
    Dr. Botkin. Could I comment on that?
    Mr. Broun. I will come to you and just a second, Dr. 
Botkin.
    Would you all agree with that statement?
    Dr. Botkin. Yes.
    Mr. Broun. Everybody agree with that statement?
    Okay. Dr. Botkin, you had a comment.
    Dr. Botkin. As I said, I have worked on this since 1968, 
and in--by the mid-1980s the weight of evidence, as far as I 
was concerned, was heavily in favor that there was a human-
induced climate warming and I gave talks and television 
interviews and--that said that. But since the middle of the 
1990s the--there is evidence that is running against that. For 
example, the temperature change is not tracking carbon dioxide 
increase very well. I refer again to Christy's information.
    Then there is the information from the Arctic long-term 
Antarctic ice cores that suggest--and from some recent papers 
in the Arctic that suggest that carbon dioxide change doesn't 
lead temperature change. It may actually lag it significantly 
or may not lag it--may not lead it at all. And if that is the 
case, that is still an open but important scientific question. 
So there are several lines of evidence that are suggesting that 
it is a weaker case today, not a stronger case.
    Mr. Broun. Dr. Pielke.
    Dr. Pielke. The question about science being settled I 
think is an interesting one. We probably should find out where 
there is common ground where there is not. And I think in terms 
of what Michael and Richard were saying and Dan was saying, 
CO<INF>2</INF> is increasing. There is a human component to it. 
Apparently it is not as closely connected to maybe the global 
temperature but there is a biogeochemical effect from added 
CO<INF>2</INF>. So there are concerns. The question is how does 
that fit and--in the other realm of concerns that we had from 
other human forces on the climate and other environmental 
issues? And that is the science issue that is not settled. But 
if you come up to an approach where we can come to common 
ground on some issues, we can move forward on others where we 
disagree.
    And in terms of political action, maybe all the information 
is already out there to deal with it. We know CO<INF>2</INF> is 
increasing but it is--where does it fit in terms of the range 
of all the other threats and costs that we have? I think that 
is the issue that has to be resolved.
    Mr. Broun. And how does that fit with policymakers because 
science cannot determine policy.
    Dr. Pielke. I completely agree.
    Mr. Broun. Yes. We have to take science, good science, and 
there is a lot of junk science out there, too. We have to take 
good science and take that into consideration and economic 
models have to come into play as far as we are concerned.
    And I don't think from a policy perspective, what I see 
overwhelmingly, the people who want to make radical changes in 
public policy are liberals, and those of us who want to look at 
things from another perspective are more conservative. Why is 
that so? Why is it that the liberals all say that we have got 
to make these huge changes that are going to affect our 
economy, it is going to affect job productions, et cetera, and 
they use IPCC reports, et cetera, to help bolster their claim 
and then we have Members that try to disqualify people with 
dissenting views. And to me that is unscientific and I think 
this whole discussion about settled science and how it is all 
said and done, case closed, period, is totally unscientific and 
I just encourage IPCC and those of you all who have the ability 
to make policy decisions there, not just one dissenting view 
but other dissenting views, scientific dissenting views across 
the board to publish those also.
    Chairman, my time is expired. Thank you.
    Chairman Smith. Thank you, Dr. Broun.
    Dr. Bucshon, the gentleman from Indiana, is recognized.
    Mr. Bucshon. Thank you, first of all, for all your valuable 
testimony. I was a medical doctor before coming to Congress, a 
surgeon, so analyzing data, analyzing studies in journals is 
something of course that you learn to do and you begin to 
realize that a lot of what is published is probably not 
accurate. And so that is my background just so everyone knows.
    Were there previous warming trends in--on the Earth 
predating the fossil fuel era of energy production? Dr. Botkin 
first and then----
    Dr. Botkin. Yes. If you look at the Antarctic ice cores, 
they show times where it was warmer than today and then there--
in recent times there was the medieval warming that may not 
have been as warm but it was a warming trend that had a big 
effect on people. It was the time of exploration. So there has 
been warming and cooling periods.
    Mr. Bucshon. Dr. Oppenheimer.
    Dr. Oppenheimer. There have been warming and cooling 
periods. What is unique about this period is, number one, the 
rate. And----
    Mr. Bucshon. Thanks. I have already heard your opinion on 
that.
    Dr. Oppenheimer. Okay. Okay.
    Mr. Bucshon. The question that I have, and anyone can 
answer it--start with Dr. Botkin--and it is why did the climate 
change then?
    Dr. Botkin. Well----
    Mr. Bucshon. Why was the temperature of the Earth warm then 
predating fossil fuel use? And just so you know, I am one that 
does believe the temperature of the Earth is changing, as it 
has for centuries. I am not one--I don't--I am not one of the 
people that don't believe that there are trends and the 
temperature of the Earth may very well be increasing at this 
time. I think the discussion is what the impact we are having 
on that versus historical temperature changes.
    Dr. Botkin. I can't answer the question about the cause of 
the medieval warming but you do know that there is what are 
called the Milankovitch cycles, which have to do with the orbit 
of the Earth and how the Earth spins on its access that create 
long-term changes, 20,000, 40,000, 100,000 years. But what 
caused the medieval warming I don't----
    Mr. Bucshon. Dr. Pielke first and then Dr. Oppenheimer.
    Dr. Pielke. Well, climate is always changing. Actually the 
word climate change is sort of an oxymoron because the climate 
never is--it has always varied over different time periods. But 
human activity does have an effect. CO<INF>2</INF> adds things. 
But we are now recognizing there is a natural effect of large-
scale warming over longer terms probably related to cloud 
processes that are poorly understood. So the climate system has 
become more complicated as we learn more about it and that 
makes it much more difficult to predict. But we know that 
humans have a role and there is a natural role and we are still 
trying to ferret out what the relative percentage----
    Mr. Bucshon. Dr. Oppenheimer.
    Dr. Oppenheimer. The natural climate changes occur due to 
the orbital changes that Dr. Botkin just noted, which happen 
over tens or hundreds of thousands of years. They happen 
volcanic dust particles reflect sunlight. But we can measure 
that. We know that that is not the cause of the current 
warming. They happen because the strength of the sun changes. 
We can also measure that, have been doing so for more than 30 
years.
    Mr. Bucshon. Okay.
    Dr. Oppenheimer. We know that is not the cause of the 
current warming. The only plausible cause is the human 
emissions of the greenhouse gases.
    Mr. Bucshon. Thanks for that opinion. I tend to probably 
disagree but----
    Dr. Botkin. The----
    Mr. Bucshon. --it is open, all of us should have this 
discussion.
    And I want to make some comments about someone else who was 
addressing the money. This issue is about money, and when you 
look at the State that I represent, the State of Indiana, which 
depends on coal for 85 to 90 percent of our power generation, 
this is a huge issue. And I mean you only have to listen to the 
testimony and the discussion from other witnesses about federal 
funding, when you try to not give federal funding to people 
that they support, what happens, how horrible that is, and when 
the Republican-controlled House doesn't give money to people 
that support the Administration's position on this particular 
issue, you see the outrage.
    Also, if you don't think this is about that, look at some 
of the line of questioning. And Dr. Botkin, I am going to 
apologize on behalf of Congress for the really, I think, 
juvenile insulting questions that you had about seatbelts and 
other things, trying to disparage the credibility of 
distinguished panel members, no matter who that is, that should 
not be part of the discussion. The money should not be part of 
the discussion. What this should be about is science and I am 
hopeful that we--all of us on either side, whatever we believe, 
can stick to science.
    With that, Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Dr. Bucshon.
    And that concludes our Members who had questions.
    And let me thank all the panelists, all the witnesses today 
for their testimony. I think this has been particularly helpful 
to us. We heard things we haven't heard before and so the 
record is vastly improved because of your contribution.
    So thank you again and we stand adjourned.
    [Whereupon, at 12:59 p.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Richard S.J. Tol

[GRAPHIC] [TIFF OMITTED] 
Responses by Dr. Michael Oppenheimer

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. Daniel Botkin

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. Roger Pielke Sr.

[GRAPHIC] [TIFF OMITTED] 
                              Appendix II

                              ----------                              


                   Additional Material for the Record



              Article submitted by Chairman Lamar S. Smith
              
[GRAPHIC] [TIFF OMITTED] 

            Article submitted by Representative Marc Veasey
            
[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
